<html>
<title> - LEADERSHIP CHALLENGES AT THE DEPARTMENT OF HOMELAND SECURITY: ALLEGATIONS OF IMPROPER INFLUENCE REGARDING SPECIAL VISAS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  LEADERSHIP CHALLENGES AT THE DEPARTMENT 
                          OF HOMELAND SECURITY

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   MARCH 26, 2015 and APRIL 30, 2015

                               __________

                           Serial No. 114-13

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
94-888 PDF                WASHINGTON : 2015                      

                   
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583f2837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>  
                    
                     
                     
                     
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Patrick Meehan, Pennsylvania*        Donald M. Payne, Jr., New Jersey
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Scott Perry, Pennsylvania            Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Kathleen M. Rice, New York
John Katko, New York                 Norma J. Torres, California
Will Hurd, Texas
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

On April 14, 2015, Mr. Patrick Meehan of Pennsylvania was elected 
  to the Committee pursuant to H. Res. 199.
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 26, 2015

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     9

                               Witnesses

Mr. John Roth, Inspector General, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Ms. Maria M. Odom, Ombudsman, U.S. Citizenship and Immigration 
  Services, U.S. Department of Homeland Security.................    14

                                Appendix

Questions From Chairman Michael T. McCaul for Maria M. Odom......    37

                             APRIL 30, 2015
                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    44
  Prepared Statement.............................................    46

                                Witness

Hon. Alejandro Mayorkas, Deputy Secretary, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    51
  Prepared Statement.............................................    53

                             For the Record

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  USCIS Policy Memorandum........................................    55

 
     LEADERSHIP CHALLENGES AT THE DEPARTMENT OF HOMELAND SECURITY: 
       ALLEGATIONS OF IMPROPER INFLUENCE REGARDING SPECIAL VISAS

                              ----------                              


                        Thursday, March 26, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:23 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Miller, Duncan, Barletta, 
Perry, Clawson, Katko, Hurd, Carter, Walker, Loudermilk, 
McSally, Ratcliffe, Thompson, Vela, Watson Coleman, Rice, and 
Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The purpose of this hearing is to receive 
testimony regarding the Inspector General's investigation into 
leadership decisions involving the Immigrant Investor program, 
known as EB-5 program.
    I now recognize myself for an opening statement.
    As public servants, trust, integrity, and honesty means 
everything. As Members of Congress, we must have the trust of 
our constituents and carry out our jobs without the perception 
of impropriety.
    Without these qualities, we cannot be seen as effective 
leaders. Simply put, a public office is a public trust.
    The same holds true for all public servants, including the 
top leadership at the Department of Homeland Security.
    In an April 2010 memo to USCIS employees, then-Director 
Mayorkas stated, ``Each USCIS employee has the duty to act 
impartially in the performance of his or her official duties. 
Any occurrence of actual or perceived preferential treatment, 
like treating similarly-situated applicants differently, can 
call into question our ability to implement our Nation's 
immigration laws fairly, honestly, and properly.'' That is in 
his words.
    I am extremely troubled by the findings of the DHS 
Inspector General's report on the EB-5 program. The alleged 
exertion of undue influence and special processes established 
by Deputy Secretary Mayorkas during his tenure as director of 
USCIS that resulted in benefits for politically connected and 
powerful individuals is extremely concerning.
    The list of individuals involved in the allegations raised 
in the report reads like an A-list of political powerhouses: Ed 
Rendell, former Democratic Governor of Pennsylvania, former 
chair of the Democratic National Committee, and long-time 
Clinton advocate; Terry McAuliffe, current Democratic Governor 
of Virginia, former chair of the Democratic National Committee, 
co-chairman of President Bill Clinton's 1996 re-election 
campaign, and chairman of Hillary Clinton's 2008 Presidential 
campaign; Anthony Rodham, younger brother of Hillary Clinton; 
and Harry Reid, Senate Minority Leader.
    The findings show that Mr. Mayorkas' intervention in three 
specific examples involving the individuals I just mentioned 
gave the appearance that he played favorites with these 
Democratic political operatives capable of opening doors in 
Washington.
    Specifically, according to the Inspector General's report: 
Mr. Mayorkas intervened in an administrative appeal related to 
an application to receive EB-5 funding to manufacture electric 
cars through investments in a company at the behest of Terry 
McAuliffe, a former board chairman, and Anthony Rodham, who was 
listed as the CEO of Gulf Coast, an entity that managed related 
investments.
    Mr. Mayorkas intervened in a case involving a Las Vegas 
hotel that was of interest to Senator Reid. He also took the 
extraordinary step of requiring staff to brief Senator Reid's 
staff on a weekly basis for several months.
    Mr. Mayorkas intervened in the L.A. Films Regional Center 
cases by ordering that a USCIS decision to deny a proposal to 
fund a series of movie projects in Los Angeles be reversed 
after he was in contact with Ed Rendell.
    Mr. Mayorkas overruled career staff in numerous instances 
and, according to the report, ``communicated with stakeholders 
on substantive issues'' and influenced the outcome of the 
cases.
    Although there are a lot of details and technical specifics 
in this report, I am troubled by many aspects that allegedly 
occurred under the watch and with the direct intervention of 
Mr. Mayorkas. As I read the report I was struck by four main 
themes.
    Here are some quotes from the Inspector General's Report, 
and they appear on the monitor. No. 1, special access: ``Their 
allegations were unequivocal: Mr. Mayorkas gave special access 
and treatment to certain individuals and parties.'' 
Furthermore, the report states that ``Mr. Mayorkas' 
communication with external stakeholders on specific matters 
outside the normal procedures created an appearance of 
favoritism and special access.''
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    No. 2, political favoritism: ``We received complaints from 
USCIS employees that the application for a politically 
connected regional center, Gulf Coast Funds Management, 
received extraordinary treatment as a result of Mr. Mayorkas' 
intervention.'' Additionally, ``USCIS staff understood that 
these applicants were prominent or politically connected.''
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    No. 3, created or went around established process and 
career staff decisions: ``Mr. Mayorkas was in contact, outside 
of the normal adjudication process, either directly or through 
senior DHS leadership, with a number of stakeholders having 
business before USCIS. According to the employees, but for Mr. 
Mayorkas' actions, the staff would have decided these matters 
differently.''
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    No. 4, misplaced priorities: ``Mr. Mayorkas' focus on a few 
applicants and stakeholders was particularly troubling to 
employees given the massive scope of his responsibilities as 
director of USCIS.''
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As a former Federal prosecutor in the public integrity 
section in main Justice, I appreciate the thorough review that 
was conducted by the DHS Inspector General in this case.
    Mr. Roth, I want to thank you for your work on this report.
    I was struck by the sheer number and variety of the 
whistleblowers who contributed to this report. More than 15 DHS 
employees stepped forward. I can't think of any report in the 
past that has had that many.
    They varied in responsibility and authority and included 
very senior managers who were in a position to witness the 
events in Washington, and experts who handle this program in 
the field. This really drove home the gravity of their 
allegations.
    In addition, I know your office conducted more than 50 
interviews, reviewed more than 40,000 phone records, and 
obtained more than 1 million documents and e-mails.
    As the committee continues its rigorous oversight of the 
Department, we must review these findings to determine if 
Congressional action is needed to ensure proper systems are 
placed to effectively manage the EB-5 program. We also need to 
ensure the program strikes a balance between National security 
and commerce.
    Today, as the Chairman of the Committee on Homeland 
Security, I want to listen to the facts and the findings of 
your report and determine if further oversight by this 
committee is warranted. In fairness, I also look forward to 
hearing from Mr. Mayorkas and hearing his side of this story in 
the near future.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             March 26, 2015
    As public servants, trust, integrity, and honesty mean everything. 
As Members of Congress, we must have the trust of our constituents and 
carry out our jobs without the perception of impropriety.
    Without these qualities, we cannot be seen as effective leaders, 
simply put, a public office is a public trust. The same holds true for 
all public servants including the top leadership at the Department of 
Homeland Security.
    In an April 2010 memo to USCIS employees, then-Director Mayorkas 
stated, ``Each USCIS employee has the duty to act impartially in the 
performance of his or her official duties. Any occurrence of actual or 
perceived preferential treatment, like treating similarly-situated 
applicants differently, can call into question our ability to implement 
our Nation's immigration laws fairly, honestly, and properly,'' and 
that is in his words.
    I am extremely troubled by the findings of the DHS Inspector 
General's Report on the EB-5 program. The alleged exertion of undue 
influence and special processes established by Deputy Secretary 
Alejandro Mayorkas during his tenure as director of USCIS that resulted 
in benefits for politically-connected and powerful individuals is 
extremely concerning.
    The list of individuals involved in the allegations raised in the 
report reads like an A-list political powerhouses:
    Ed Rendell.--Former Democratic Governor of Pennsylvania, former 
        chair of the Democratic National Committee and long-time 
        Clinton advocate;
    Terry McAuliffe.--Current Democratic Governor of Virginia, former 
        chair of the Democratic National Committee (after Ed Rendell), 
        co-chairman of President Bill Clinton's 1996 re-election 
        campaign, and chairman of Hillary Clinton's 2008 Presidential 
        campaign;
    Anthony Rodham.--Younger brother of Hillary Clinton; and
    Harry Reid.--Senate Minority Leader.
    The findings show that Mr. Mayorkas' intervention in three specific 
examples, involving the individuals I just mentioned gave the 
appearance that he played favorites with these Democratic political 
operatives capable of opening doors in Washington. Specifically, 
according to the Inspector General's report:
    (1) Mr. Mayorkas intervened in an administrative appeal related to 
        an application to receive EB-5 funding to manufacture electric 
        cars through investments in a company at the behest of Terry 
        McAuliffe, a former board chairman, and Anthony Rodham, who was 
        listed as the CEO of Gulf Coast, an entity that managed related 
        investments.
    (2) Mr. Mayorkas intervened in a case involving a Las Vegas hotel 
        that was of interest to Senator Reid. He also took the 
        extraordinary step of requiring staff to brief Senator Reid's 
        staff on a weekly basis for several months.
    (3) Mr. Mayorkas intervened in the L.A. Films Regional Center cases 
        by ordering that a USCIS decision to deny a proposal to fund a 
        series of movie projects in Los Angeles be reversed after he 
        was in contact with Ed Rendell.
    Mr. Mayorkas overruled career staff in numerous instances and 
according to the report, ``communicated with stakeholders on 
substantive issues'' and influenced the outcome of the cases.
    Although there are a lot of details and technical specifics in this 
report, I am troubled by many aspects that allegedly occurred under the 
watch, and with the direct intervention of Mr. Mayorkas.
    As I read the report, I was struck by four main themes. Here are 
some quotes from the Inspector General's report:
    (1) Special Access.--``Their allegations were unequivocal: Mr. 
        Mayorkas gave special access and treatment to certain 
        individuals and parties.''
    Furthermore, the report states that `` . . . Mr. Mayorkas' 
        communication with external stakeholders on specific matters 
        outside the normal procedures created an appearance of 
        favoritism and special access.''
    (2) Political Favoritism.--``We received complaints from USCIS 
        employees that the application for a politically connected 
        regional center, Gulf Coast Funds Management, received 
        extraordinary treatment as a result of Mr. Mayorkas' 
        intervention.'' Additionally, ``USCIS staff . . . understood 
        that these applicants were prominent or politically 
        connected.''
    (3) Created or Went Around the Established Process and Career Staff 
        Decisions.--``Mr. Mayorkas was in contact, outside of the 
        normal adjudication process, either directly or through senior 
        DHS leadership, with a number of stakeholders having business 
        before USCIS . . . According to the employees, but for 
        Mayorkas' actions, the staff would have decided these matters 
        differently.''
    (4) Misplaced Priorities.--``Mr. Mayorkas' focus on a few 
        applicants and stakeholders was particularly troubling to 
        employees given the massive scope of his responsibilities as 
        Director of USCIS.''
    As a formal Federal prosecutor in the public integrity section for 
the Department of Justice, I appreciate the thorough review conducted 
by the DHS Inspector General.
    Mr. Roth, thank you for your work on this report. I was struck by 
the sheer number and variety of the whistleblowers who contributed to 
this report. More than 15 DHS employees stepped forward. I can't think 
of any report in the past that has had as many. They varied in 
responsibility and authority and included ``very senior managers'' who 
were in a position to witness the events in Washington, DC and experts 
who handle this program in the field. This really drove home the 
gravity of their allegations. In addition, I know your office conducted 
more than 50 interviews, reviewed more than 40,000 phone records and 
obtained more than 1 million documents and emails.
    As the committee continues its rigorous oversight of the 
Department, we must review these findings to determine if Congressional 
action is needed to ensure proper systems are place to effectively 
manage the EB-5 program. We also need to ensure that the program 
strikes a balance between National security and commerce.
    Today, as Chairman of the Committee on Homeland Security, I want to 
listen to the facts and findings of your report and determine if 
further oversight by my committee is warranted. I also look forward to 
hearing from Mr. Mayorkas and hearing his side of the story in the near 
future.

    Chairman McCaul. With that, I recognize the Ranking Member.
    Mr. Thompson. Thank you very much, and I want to thank you 
for holding today's hearing.
    I also thank both Inspector General Roth and Ms. Odom for 
appearing today.
    The degree of independence that you both have strengthens 
your ability to be an advocate for the public interest. Last 
Thursday this hearing was officially noticed as ``Leadership 
Challenges at the Department of Homeland Security.'' The 
Department of Homeland Security certainly has several 
leadership challenges that I want to discuss.
    For instance, I still want to know why, despite the United 
States Secret Service's Protective Mission Panel 
recommendation, the Secret Service still has not brought 
someone from outside the agency into its leadership. However, I 
see from press releases the title now includes ``Allegations of 
Improper Influence Regarding Special Visas.''
    On Tuesday the Inspector General publicly released the 
results of an investigation into employee complaints about 
management of the Investor Visa program managed by the United 
States Citizenship and Immigration Services, better known as 
the EB-5 program. The report centers around Deputy Secretary 
Mayorkas' efforts when he was director of USCIS. For the 
purposes of background, the EB-5 program accounts for less than 
1 percent of all visas issued by USCIS. Nonetheless, the EB-5 
program potential as a job creator gives its visibility to 
Congressional leaders from across the political spectrum.
    On average, USCIS is contacted over 1,500 times per year 
about specific cases. I am sure that those communications did 
not come from just one office or one party.
    Yet for years the EB-5 program, like many USCIS programs, 
has well-documented management issues and challenges that 
demand action. In the absence of Congressional action to 
address the wide range of woes this program faced, Mr. 
Mayorkas, while the director of USCIS, took on those 
challenges.
    I have read the Inspector General's report, find it 
instructive insofar as it is a window into Deputy Secretary 
Mayorkas' leadership style. The picture that emerges in this 
report is of an activist manager who demanded reform and 
responsiveness from his agency.
    It seems that at times, Mayorkas' style made employees feel 
uncomfortable. This is unfortunate, and I am sure that Mr. 
Mayorkas, if he were here today, would express regret about 
that.
    I commend Inspector General Roth for taking a hard look at 
the charges leveled by those whistleblowers. I hope that the 
Inspector General will come to take such action when 
whistleblowers are involved.
    However, I regret, Mr. Chairman, that the headlines and 
news accounts about these reports are not in line with the 
Inspector General's actual findings. Mr. Chairman, a man's 
reputation is at stake. Before we jump to conclusions and join 
the bandwagon of media reports, we must be responsible.
    For the record, the Inspector General did not find that 
Deputy Secretary Mayorkas broke any laws. Instead, the 
Inspector General acknowledges that Deputy Secretary Mayorkas 
and the USCIS personnel recognized the risks to the program if 
benefits were granted without transparency and were not 
adjudicated according to statute, regulations, and existing 
policy.
    In fact, the report explicitly states that the decisions 
made by Mr. Mayorkas were legitimately within his purview, and 
despite news accounts of political favoritism, the Inspector 
General also did not find that a single adjudication in 
question was improperly decided.
    The report did, however, find a wide range of resentment 
within the component. Unfortunately, resentment toward 
management and low morale is not an anomaly at DHS.
    Consequently, Mr. Chairman, it is a fair question to ask if 
the hands-on, reform-minded leadership style that Deputy 
Secretary Mayorkas seems to have exhibited here is what DHS 
needs to address its long-standing management and operational 
challenges. It is also fair, as Secretary Johnson has 
indicated, to look into the protocols of the program and see 
what changes can be implemented, including changes in the law 
that Congress could enact.
    Mr. Chairman, I want to remind you that just 2 days ago in 
this hearing room former Speaker Gingrich urged us as Members 
of Congress to stop being obstructionists and work together, 
especially in the interest of security.
    What is unreasonable, Mr. Chairman, is to degrade deputy 
secretaries' integrity and reputation. I hope that it is not 
what we are here to do.
    I hope that today we can receive testimony and gain more 
insight to both the program and Inspector General's findings. I 
also hope that at a future hearing we can have the deputy 
secretary testify on the reforms he made at USCIS and the 
changes he is making at the Department of Homeland Security, 
and how we can truly address the leadership challenges at DHS.
    I yield back, Mr. Chairman.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 26, 2015
    Last Thursday, this hearing was officially noticed as ``Leadership 
Challenges at the Department of Homeland Security''. The Department of 
Homeland Security certainly has several leadership challenges that I 
want to discuss.
    For instance, I still want to know why, despite the United States 
Secret Service's Protective Missions Panel's recommendations, the 
Secret Service still has not brought someone from outside the agency 
into its leadership. However, I see from press releases, the title now 
includes allegations of improper influence regarding special visas.
    On Tuesday, the Inspector General publicly released the results of 
an investigation into employee complaints about management of the 
investor visa program managed by the United States Citizenship and 
Immigration Services, better known as the ``EB-5 program.'' The report 
centers around Deputy Secretary Alejandro Mayorkas' efforts when he was 
the director of USCIS. For the purposes of background, the EB-5 program 
accounts for less than 1 percent of all visas issued by USCIS.
    Nonetheless, the EB-5 program's potential as a job-creator gives it 
visibility to Congressional leaders from across the political spectrum. 
On average, USCIS is contacted over 1,500 times per year about specific 
cases. I am sure that those communications did not come from just one 
office or one party.
    Yet, for years, the EB-5 program, like many USCIS programs, had 
well-documented management issues and challenges that demanded action. 
In the absence of Congressional action to address the wide range of 
woes this program faced, Mr. Mayorkas, while the director of USCIS, 
took on those challenges. I have read the Inspector General's report 
and find it instructive insofar as it is a window into Deputy Secretary 
Mayorkas' leadership style.
    The picture that emerges in this report is of an activist manager 
who demanded reform and responsiveness from his agency. It seems that, 
at times, Mayorkas' style made employees feel uncomfortable. That is 
unfortunate and I am sure that Mr. Mayorkas, if he was here today would 
express regret about that.
    I commend Inspector General Roth for taking a hard look at the 
charges leveled by these whistleblowers. I hope that the Inspector 
General will continue to take such action when whistleblowers are 
involved.
    However, I regret that the headlines and news accounts about this 
report are not in line with the Inspector General's actual findings. 
Mr. Chairman, a man's reputation is at stake. Before we jump to 
conclusions and join the bandwagon of media reports, we must be 
responsible. For the record, the Inspector General did not find that 
Deputy Secretary Mayorkas broke any laws. Instead, the Inspector 
General acknowledges that Deputy Secretary Mayorkas and the USCIS 
personnel recognized the risks to the program if benefits were granted 
without transparency and were not adjudicated according to statute, 
regulations, and existing policy.
    In fact, the report explicitly states that the decisions made by 
Mr. Mayorkas were ``legitimately within his purview.'' And despite news 
accounts of political favoritism, the Inspector General also did not 
find that a single adjudication in question was improperly decided. The 
report did, however, find a wide range of resentment within the 
component. Unfortunately, resentment towards management and low morale 
is not an anomaly at DHS.
    Consequently, Mr. Chairman, it is a fair question to ask if the 
hands-on, reform-minded leadership style that Deputy Secretary Mayorkas 
seems to have exhibited here is what DHS needs to address its long-
standing management and operational challenges. It is also fair, as 
Secretary Johnson has indicated, to look into the protocols of the 
program and see what changes can be implemented, including changes in 
the law that Congress could enact.
    Mr. Chairman, I want to remind you that just 2 days ago, in this 
hearing room, Former House Speaker Gingrich urged us, as, Members of 
Congress, to stop being obstructionists and work together, especially 
in the interest of security.
    What is unreasonable is to degrade deputy secretary's integrity and 
reputation. I hope that is not what we are here to do. I hope that 
today we can receive testimony and gain more insight to both the 
program and the Inspector General's findings.
    I also hope that at a future hearing we can have the deputy 
secretary testify on the reforms he made at USCIS and the changes he is 
making at the Department of Homeland Security and how we can truly 
address the leadership challenges at DHS.

    Chairman McCaul. I appreciate the Ranking Member's 
comments. I do agree with you that a man's reputation is at 
stake here, and I take that responsibility very seriously.
    I do believe that Mr. Mayorkas should have the opportunity, 
the accused, to come before this committee and tell his side of 
this story. I am simply interested in the facts and the 
evidence as they present themselves, which is why we have the 
Inspector General here today with his report.
    Other Members are reminded that statements may be submitted 
for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             March 26, 2015
    I thank Chairman McCaul and Ranking Member Thompson for holding 
this morning's hearing on ``Leadership Challenges at the Department of 
Homeland Security.''
    I welcome and thank today's witnesses: Mr. John Roth, the Inspector 
General for the Department of Homeland Security; and Ms. Maria M. Odom, 
Citizenship and Immigration Services ombudsman with the Department of 
Homeland Security.
    The subject of today's hearing is an Inspector General Report of 
the Department of Homeland Security (DHS) regarding allegations by 
employees against former USCIS director, and now DHS deputy secretary, 
Alejandro N. Mayorkas regarding three separate Employment-Based Fifth 
Preference (EB-5) applications that:
  <bullet> Found no wrong-doing.
  <bullet> Found no unlawful act committed for an unlawful purpose.
  <bullet> Found no lawful act for an unlawful purpose.
    There were three unusual acts but none were determined to be 
unlawful by the Inspector General.
    As the director of an adjudicatory agency, Mr. Mayorkas' delegation 
of authority to subordinates to conduct work on the behalf of the 
director was normal and reasonable.
    However, the director's delegation of responsibility to perform 
work on his behalf did not and does not mean the delegation divested 
him of his ultimate authority to render the final decision of the 
agency.
    The director's signature must be affixed to each final decision--
and the director retains the power and authority under the letter of 
the law to accept or reject, in whole or in part, the preliminary 
recommendations of his subordinates.
    Two major requirements of administrative decision making are that 
the director not personally benefits from the decisions reached and 
that the decisions are not arbitrary or capricious.
    We are here today to review the publication of an Inspector General 
Report that was not referred to the Department of Justice.
    The scope of Office of Inspector General's investigation was 
limited to determining whether Director Mayorkas engaged in conduct 
that would lead a reasonable person to believe that specific 
individuals or groups were given special access or consideration in the 
EB-5 program.
    The OIG report focused on whether Director Mayorkas intervened in 
the adjudicative process to the benefit of stakeholders regarding three 
EB-5 applications--L.A. Films Regional Center, Las Vegas Regional 
Center, and Gulf Coast Funds Management Regional Center.
    The OIG found that Director Mayorkas and the personnel of the USCIS 
recognized the risks to the EB-5 program if benefits were granted 
without transparency and were not adjudicated according to statute, 
regulations, and existing USCIS policy governing EB-5 matters.
    The USCIS established processes to ensure all communications with 
stakeholders were properly documented and to ensure the process for 
deciding on petitions and applications closely followed statute, 
regulations, and established policy.
    The Inspector General found a number of instances in which Director 
Mayorkas declined to become involved in certain matters, stating that 
he did not think it would be appropriate for the director to do so.
    It is important to note that Alejandro N. Mayorkas has been in 
public service for nearly 17 years--12 of which as a Federal prosecutor 
in the U.S. Attorney's Office for the Central District of California, 
including almost 3 years as the United States Attorney.
    Upon taking his position as director of USCIS he ordered a top-down 
review of the agency.
    In Director Mayorkas words, the review found an agency ``filled 
with dedicated public servants but one that faced significant 
challenges executing its mission.''
    The report identified the following challenges:
    (1) Prioritizing case processing time goals in tension with the 
        critical needs of National security and program integrity;
    (2) Inconsistent adjudication policies and the inconsistent 
        application of adjudication policies; and
    (3) A fundamental misalignment of the agency's organizational 
        structure.
    Director Mayorkas focused his efforts on addressing these 
challenges by making National security and fraud detection the primary 
goal of the agency.
    To this end, Director Mayorkas established several directorates and 
offices which included:
    (1) Fraud Detection and National Security Directorate;
    (2) Service Center Operations Directorate;
    (3) Field Operations Directorate;
    (4) Office of Performance and Quality;
    (5) Management Directorate; and
    (6) Office of Public Engagement.
    In 2010, the first full year that Director Mayorkas was in the 
position the USCIS received 1,953 applications; the agency approved 
1,369, and denied 165.
    In 2013, when he was confirmed as Deputy Secretary of Homeland 
Security, USCIS received 6,346 applications; approved 3,699; and 943 
applications were denied.
    I would offer to my colleagues that an act is not unlawful or 
improper just because it may be unusual.
    As Members of this body we often act consistent with the vote 
recommendations of our respective leadership on matters that come 
before the House, but we are not bound by those recommendations.
    We, as Members might usually vote as recommended because we agree 
with the positions recommended; but should we disagree it is neither 
appropriate nor reasonable to question the integrity of the Member who 
has done nothing more than exercised the ultimate authority that he or 
she alone possesses.
    I thank today's witnesses and look forward to their testimony.
    Thank you.

    Chairman McCaul. I would like to introduce our panel today.
    First, the Honorable John Roth assumed the post of 
Inspector General for the Department of Homeland Security in 
March of 2014. Previously, he served as director of the Office 
of Criminal Investigations at the Food and Drug Administration 
as an assistant U.S. attorney for the Eastern District of 
Michigan.
    Second, we have Ms. Maria Odom, who was appointed as 
ombudsman of the Citizenship and Immigration Services in 
September 2012. Prior to her current position, she was 
executive director of the Catholic Legal Immigration Network 
and served in the Department of Justice.
    I want to thank you all for being here today.
    Chairman now recognizes Mr. Roth for his testimony.

 STATEMENT OF JOHN ROTH, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Roth. Thank you.
    Chairman McCaul, Ranking Member Thompson, and Members of 
the committee, thank you for your invitation to testify today 
regarding our investigation into the complaints made against 
Alejandro Mayorkas regarding his management of the EB-5 program 
when he was director of USCIS. As you know, we recently issued 
a written report of the results of our investigation, and my 
testimony here today will summarize what we found.
    As a result of our inquiry, we found that USCIS personnel, 
including Mr. Mayorkas, recognized the risks to the EB-5 
program if benefits were granted without transparency and were 
not adjudicated according to statute, regulations, and existing 
policy. We found a number of instances in which Mr. Mayorkas 
declined to become involved in certain matters, stating that he 
did not think it would be appropriate for the director to do 
so.
    In three matters pending before USCIS, however, Mr. 
Mayorkas communicated with stakeholders on substantive issues 
outside the normal adjudication process and intervened with 
career staff in ways that benefited those stakeholders. In each 
of these three instances, but for Mr. Mayorkas' intervention, 
the matter would have been decided differently.
    Mr. Mayorkas told us that his sole motivation for such 
involvement was to strengthen the integrity of the program. He 
said he had no interest in whether a particular application was 
approved or denied.
    Regardless of Mr. Mayorkas' motives, his intervention in 
these matters created significant resentment within USCIS. This 
resentment was not isolated to career staff within the EB-5 
program, but extended to senior managers and attorneys 
responsible for the broader USCIS mission and programs.
    The juxtaposition of Mr. Mayorkas' communication with 
outside stakeholders on specific matters outside the normal 
procedures, coupled with favorable action that deviated from 
the regulatory scheme that was designed to ensure fairness and 
evenhandedness, created an appearance among staff of favoritism 
and special access.
    During the course of our work, we identified a significant 
number of DHS employees--more than 15--with varying levels of 
responsibility and authority, who each had direct contact with 
Mr. Mayorkas and were in a position to witness the events in 
question. The number and variety of witnesses was, in our 
experience, highly unusual.
    Each conveyed the same factual scenario: Certain applicants 
and stakeholders received preferential access to DHS leadership 
and preferential treatment in the manner in which their 
application or petition was handled.
    USCIS personnel consistently made allegations about the 
same three matters, and the first instance involved the L.A. 
Films Regional Center. Mr. Mayorkas ordered that a USCIS 
decision to deny a proposal to fund a series of Sony movie 
projects in Los Angeles be reversed after he was in contact 
with politically prominent stakeholders associated with the 
venture.
    Mr. Mayorkas later created a deference review board, 
staffed with individuals he hand-picked, to review a separate 
series of Time Warner movie projects. This board did not 
previously exist and was never used again after it voted to 
reverse the adjudicators' proposed denials. Remarkably, there 
is no record of the proceedings of this board.
    The second instance involved the Las Vegas Regional Center. 
At the request of a U.S. Senator, Mr. Mayorkas intervened to 
allow expedited review of investor petitions involving the 
funding of a Las Vegas hotel and casino, notwithstanding the 
career staff's original decision not to do so.
    The third instance we found involved the Gulf Coast Funds 
Management Regional Center. Mr. Mayorkas intervened in an 
administrative appeal related to the denial of a regional 
center's application to receive EB-5 funding to manufacture 
electric cars through investments in a company associated with 
politically prominent individuals. This intervention was 
unprecedented and, because of the political prominence of the 
individuals involved as well as USCIS' traditional deference to 
the administrative appeals process, the staff perceived that as 
politically motivated.
    Mr. Mayorkas' actions in these matters created a perception 
within the EB-5 program that certain individuals have special 
access and would receive special consideration.
    This concludes my testimony. I am happy to answer any 
questions the panel--the committee may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                             March 26, 2015
    Chairman McCaul, Ranking Member Thompson, and Members of the 
Committee, thank you for your invitation to testify today regarding our 
investigation into the complaints made against Alejandro Mayorkas 
regarding his management of the Employment-Based Fifth Preference (EB-
5) program when he was director of U.S. Citizen and Immigration 
Services (USCIS). As you know, we recently issued a written report of 
the results of our investigation, and my testimony here today will 
summarize what we found.
    We undertook this investigation after receiving allegations from 
career USCIS employees that Alejandro Mayorkas, then-director of USCIS 
and current deputy secretary of the Department of Homeland Security, 
was exerting improper influence in the normal processing and 
adjudication of applications and petitions in a program administered by 
USCIS. Specifically, we were told that Mr. Mayorkas was in contact, 
outside the normal adjudication process, with specific applicants and 
other stakeholders in the EB-5 program, which gives residency 
preference to aliens who agree to invest in the U.S. economy to create 
jobs for U.S. citizens. We were also told he was exerting influence to 
give these individuals preference and access not available to others.
    The scope of our investigation was to determine whether Mr. 
Mayorkas engaged in conduct that would lead a reasonable person to 
believe that specific individuals or groups were given special access 
or consideration in the EB-5 program.
                             what we found
    As a result of our inquiry, we found:
  <bullet> USCIS personnel, including Mr. Mayorkas, recognized the 
        risks to the EB-5 program if benefits were granted without 
        transparency and were not adjudicated according to statute, 
        regulations, and existing USCIS policy governing EB-5 matters. 
        USCIS therefore took pains to ensure all communications with 
        stakeholders were properly documented and to ensure the process 
        for deciding on petitions and applications closely followed 
        statute, regulations, and established policy. Indeed, USCIS was 
        obligated by law to follow the procedures set forth in the 
        regulations. We found a number of instances in which Mr. 
        Mayorkas declined to become involved in certain matters, 
        stating that he did not think it would be appropriate for the 
        director to do so.
  <bullet> In three matters pending before USCIS, however, Mr. Mayorkas 
        communicated with stakeholders on substantive issues, outside 
        of the normal adjudicatory process, and intervened with the 
        career USCIS staff in ways that benefited the stakeholders. In 
        each of these three instances, but for Mr. Mayorkas' 
        intervention, the matter would have been decided differently.
  <bullet> We were unable to determine Mr. Mayorkas' motives for his 
        actions. In each instance he remembered, Mr. Mayorkas asserted 
        that he intervened to improve the EB-5 process or to prevent 
        error. As a result, he claimed that he took a hands-on approach 
        when a case warranted his personal involvement. Mr. Mayorkas 
        told us that his sole motivation for such involvement was to 
        strengthen the integrity of the program; he said he had no 
        interest in whether a particular application or petition was 
        approved.
  <bullet> Regardless of Mr. Mayorkas' motives, his intervention in 
        these matters created significant resentment in USCIS. This 
        resentment was not isolated to career staff adjudicating within 
        the EB-5 program, but extended to senior managers and attorneys 
        responsible for the broader USCIS mission and programs.
  <bullet> The juxtaposition of Mr. Mayorkas' communication with 
        outside stakeholders on specific matters outside the normal 
        procedures, coupled with favorable action that deviated from 
        the regulatory scheme designed to ensure fairness and 
        evenhandedness in adjudicating benefits, created an appearance 
        of favoritism and special access.
                             our witnesses
    During the course of our work, we identified a significant number 
of DHS employees--more than 15--with varying levels of responsibility 
and authority, including some very senior managers at USCIS and USCIS' 
Office of the Chief Counsel (OCC), who each had direct contact with Mr. 
Mayorkas and were in a position to witness the events. Each conveyed 
the same factual scenario: Certain applicants and stakeholders received 
preferential access to DHS leadership and preferential treatment in 
either the handling of their application or petition or regarding the 
merits of the application or petition. Other employees with whom we 
spoke did not have direct contact with Mr. Mayorkas, but witnessed 
significant deviations from the normal process for certain applicants. 
Many witnesses provided emails, written contemporaneously with the 
events, to support their allegations of special access and treatment.
    The number and variety of witnesses is highly unusual. It is also 
quite unusual that a significant percentage of the witnesses we 
interviewed would talk to us only after being assured that their 
identities would remain confidential. Being a whistleblower is seen to 
be hazardous in the Federal Government, and a typical investigation 
would have 1 or perhaps 2. That so many individuals were willing to 
step forward and tell us what happened is evidence of deep resentment 
about Mr. Mayorkas' actions related to the EB-5 program. These 
employees worked in both USCIS headquarters and the California Service 
Center. Headquarters staff worked in Service Center Operations (the 
unit that supervised the California Service Center), the Administrative 
Appeals Office, the EB-5 program office, in USCIS leadership offices, 
and in OCC. The employees include current and retired career and non-
career members of the Senior Executive Service, attorneys, all levels 
of supervisors, immigration officers, and those involved in fraud 
detection and National security.
    We will protect the confidentiality of these courageous employees, 
who are protected from retaliation by the Whistleblower Protection Act 
and whose identities are protected under the provisions of the 
Inspector General Act. We hope that their actions will set an example 
for all potential whistleblowers that look to the Office of Inspector 
General to give them a voice.
                             three examples
    USCIS personnel consistently made allegations about the same three 
matters. In each instance, Mr. Mayorkas was in contact with individuals 
perceived by career USCIS employees to be politically powerful and 
intervened in the adjudicative process in unprecedented ways to the 
stakeholders' benefit. We describe these three instances in more detail 
in the body of this report. To help understand the facts, we have also 
included time lines for two of these matters in appendixes.
  <bullet> L.A. Films Regional Center.--Mr. Mayorkas ordered that a 
        USCIS decision to deny a proposal to fund a series of Sony 
        movie projects in Los Angeles be reversed after he was in 
        contact with politically prominent stakeholders associated with 
        the venture. Mr. Mayorkas later created a ``deference review 
        board,'' staffed with individuals he hand-picked, to review a 
        separate series of Time Warner movie projects. This board did 
        not previously exist and was never used again after it voted to 
        reverse the adjudicators' proposed denials. Remarkably, there 
        is no record of the proceedings of this board.
  <bullet> Las Vegas Regional Center.--At the request of a U.S. 
        Senator, Mr. Mayorkas intervened to allow expedited review of 
        investor petitions involved in funding a Las Vegas hotel and 
        casino, notwithstanding the career staff's original decision 
        not to do so. The career staff noted that the purported urgency 
        was of the applicant's own making and that the decision to 
        expedite fell outside EB-5 program guidelines. Nevertheless, 
        Mr. Mayorkas pressured staff to expedite the review. He also 
        took the extraordinary step of requiring staff to brief Senator 
        Reid's staff on a weekly basis for several months.
  <bullet> Gulf Coast Funds Management Regional Center.--Mr. Mayorkas 
        intervened in an administrative appeal related to the denial of 
        a regional center's application to receive EB-5 funding to 
        manufacture electric cars through investments in a company in 
        which Terry McAuliffe was the board chairman. This intervention 
        was unprecedented and, because of the political prominence of 
        the individuals involved as well as USCIS' traditional 
        deference to its administrative appeals process, staff 
        perceived it as politically motivated.
    Mr. Mayorkas' actions in these matters created a perception within 
the EB-5 program that certain individuals had special access and would 
receive special consideration.
    This concludes my testimony, I am happy to answer any questions you 
may have.

    Chairman McCaul. Thank the witness.
    Chairman now recognizes Ms. Odom for her testimony.

  STATEMENT OF MARIA M. ODOM, OMBUDSMAN, U.S. CITIZENSHIP AND 
   IMMIGRATION SERVICES, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Odom. Mr. Chairman, Ranking Member Thompson, and 
Members of the committee, thank you for the opportunity to 
testify today.
    I have the privilege of serving as the Citizenship and 
Immigration Services ombudsman, an independent headquarters 
office in the Department of Homeland Security. I also serve as 
chair of the Department's Blue Campaign, our unified effort to 
combat human trafficking.
    I would like to take this opportunity to thank many of you 
who are actively working in addressing the important issue of 
human trafficking.
    The ombudsman's statutory mission under the Homeland 
Security Act is to assist individuals and employers with 
problems with U.S. Citizenship and Immigration Services. We do 
this in two ways: We provide case assistance to applicants who 
are navigating their way through the legal immigration process, 
and we review systemic issues and make recommendations to 
USCIS.
    In establishing our office, Congress recognized that from 
time to time immigration cases are not properly handled, and 
thus the need for an office that serves the public and seeks to 
resolve problems. But this is first and foremost USCIS' 
responsibility. We are an office of last resort for those who 
have been unable to resolve their case problems directly with 
the agency.
    It is important to note that our casework informs our 
policy work, and the same is very true for USCIS. Issues 
revealed in individual cases aided the agency to develop or 
revisit broad matters of policy and practice.
    Cases, each one representing an individual, a family, an 
employer, are the lifeblood of our immigration system. In 2015 
we are on pace at our office to receive and work to resolve 
over 7,300 cases.
    The EB-5 Immigrant Investor program, created by Congress in 
1990, as many of you know, stimulates the U.S. economy through 
job creation and capital investment by foreign investors. 
Applicants must invest at least $500,000 in an American 
business that will create or work to preserve at least 10 
domestic jobs and comply with a host of other requirements.
    The EB-5 program has presented, however, USCIS with 
significant challenges over the years due to many variables, 
including the complexity of projects and the financial 
arrangements with investors. My office, prior to my arrival in 
2012 and during my tenure, has worked to resolve requests for 
case assistance from EB-5 regional centers and prospective 
investors as well as on systemic issues, including lengthy 
processing time, gaps in policy, lack of deference to prior 
USCIS decisions, and lack of communications with USCIS' EB-5 
customers.
    In March 2009 our office issued four more recommendations 
on the EB-5 program, some of which were reiterated in the 
Inspector General's 2013 EB-5 report. Additionally, we have 
written about issues in the EB-5 program in each of the 
ombudsman's office's last five annual reports to Congress. We 
continue to work to resolve individual case inquiries made to 
our office.
    When Mr. Mayorkas came to USCIS, the EB-5 program was 
seriously deficient in numerous ways. Under his leadership, 
USCIS finally issued much-needed guidance, hired new 
adjudicators and economists to improve their capacity to 
resolve these complex cases, dedicated National security 
officers to the EB-5 program, and finally, restarted 
stakeholder engagement on these important issues.
    During his tenure at USCIS, I found the director to be 
knowledgeable and to be a very involved leader. Under his 
leadership, public engagement became fundamental to the way 
USCIS conducts its work and develops new policy and 
initiatives. This was and still--and is still good for the 
agency and for the public.
    Mr. Mayorkas also focused on improving customer service and 
the quality of USCIS' adjudications. At the head of an 
adjudicatory agency, I find that his responsibility in 
reviewing these cases fell squarely with his job as the 
director of this agency. Part of his job was to decide whether 
cases were decided correctly and whether errors occurred.
    As we experience in the ombudsman's office, problem cases 
are brought to our attention by a variety of sources, including 
Members of Congress on both sides of the aisle. While some 
cases, like those in the EB-5 program, involve financially 
powerful interests, others involve the most vulnerable 
immigrants in our community. In fact, I have seen Director 
Mayorkas' direct engagement with a wide range of stakeholders, 
including those serving victims of crimes of violence and human 
trafficking.
    In my experience working with Mr. Mayorkas, though we did 
not always agree, I always found his approach to be thoughtful 
and grounded on fact and the law. His engagement as well as our 
engagement with EB-5 stakeholders was responsive in great part 
to the rising number of desperate pleas by frustrated 
investors, regional center representatives, elected officials, 
and other individuals involved in these often large-scale, 
high-impact projects facing lengthy processing delays.
    Though the Immigrant Investor program is still not without 
challenges, I believe the new office has shown signs of being a 
more transparent and rejuvenated investment and job creation 
program with a great focus on customer service and also 
integrity. While adjudication delays continue in the product 
line of the--in the EB-5 product line, the number of requests 
that we are seeing in our office for intervention on EB-5 cases 
has gone down dramatically in the last 2 years.
    I thank you for the opportunity to testify today, and I 
look forward to answering any questions you may have.
    Chairman McCaul. Thank you, Ms. Odom.
    The Chairman now recognizes himself for questions.
    Let me first say that we are very fortunate on this 
committee to have former Federal prosecutors--Mr. Katko, Mr. 
Ratcliffe, Kathleen Rice. I am not interested in being 
sensational. I have no interest in inflammatory remarks.
    I am simply interested in getting to the truth. I am 
interested in the facts and in the evidence, and that is the 
way I conducted myself when I was a Federal prosecutor in the 
public integrity section in Washington.
    But I want to begin with you, Mr. Inspector General. Now, I 
want to talk to you about the findings in your report, and I 
think it is important that Mr. Mayorkas be able to respond to 
these, as well.
    But I am deeply concerned, and I want to go case by case. 
In the L.A. Films case: In your opinion, sir, did Mr. Mayorkas 
provide special access and favoritism to former Pennsylvania 
Governor and chair of the Democratic National Committee, Ed 
Rendell, by intervening in this case?
    Mr. Roth. What we found, Congressman, is that we had 
received a number of complaints about the L.A. Films case and 
Mr. Mayorkas' approach to it. What we found, as you can see on 
page 17 of our report, is that the senior EB-5 officials were 
poised to deny the L.A. Films Sony proposal. Mr. Mayorkas had 
been informed of that in July 2011.
    What we found was that there was a telephone call on July 
15 from Mr. Mayorkas, or between Mr. Mayorkas and former 
Governor Rendell. Almost immediately after that, within an hour 
of that phone call, Mr. Mayorkas directed his staff to reverse 
the denials that had been issued and stop issuing denials.
    We are unable to understand what other intervening events 
would have occurred between the time he knew of and at least 
tacitly approved of the denials in that case other than the 
phone call with Mr. Rendell.
    Chairman McCaul. I believe on page 3 of your report you 
said Mr. Mayorkas gave special access and treatment to certain 
individuals and parties. Is that correct?
    Mr. Roth. That is correct.
    Chairman McCaul. According to your report, you said but for 
Mr. Mayorkas' actions, the career staff would have decided this 
case differently. Is that correct?
    Mr. Roth. That is correct. There were two different 
adjudications in the L.A. Films case. One involved Sony and one 
involved Time Warner, each of which were headed towards 
denials. After the intervention, that is the communication 
between Mr. Mayorkas and Mr. Rendell, those decisions were 
changed in different ways.
    Chairman McCaul. You know, Mr. Mayorkas had a policy that 
he sent to all of his employees in this memo. In your opinion, 
sir, based on your investigation, did Mr. Mayorkas--did his 
actions violate the USCIS policy on preferential treatment?
    Mr. Roth. As we note in page 13 of our report, he did issue 
this memo. One of the memos said you should not meet with 
certain stakeholders at the exclusion of others, and also that 
the appearance of that kind of thing is highly damaging to 
USCIS.
    In our judgment, we believe that these contacts between Mr. 
Rendell and Mr. Mayorkas violated that. There was a second 
policy that was issued within USCIS that said that any 
communications between stakeholders on matters that were to be 
adjudicated within USCIS had to be recorded within official 
agency files. Because we found no record of the communication 
between Mr. Mayorkas and Mr. Rendell, we believe that that 
policy was not followed.
    Chairman McCaul. In the Las Vegas hotel case, in your 
opinion, sir, did Mr. Mayorkas take extraordinary actions 
regarding Senator Harry Reid's request to expedite this case?
    Mr. Roth. We found in that case that there were several 
highly unusual things that occurred as a result of the 
intervention, one of which was the sort-of moving ahead, 
expediting the decision, which basically means that you cut in 
front of the line to be able to get your thing adjudicated. So 
we found that unusual because that had rarely been done.
    There had been a policy, although no one knew what the 
policy was. Many of the staff objected to sort-of the ad hoc 
nature of this kind of a decision because they believed that it 
would create suspicion or an appearance that someone was 
getting special favoritism.
    Chairman McCaul. Did the USCIS career staff believe that 
this would set a precedent for expediting future cases?
    Mr. Roth. One of their concerns was that the reason that 
they wanted to expedite it--SLS wanted to expedite the 
processing was because they had not arranged their investors in 
a timely fashion and they were going to lose their financing if 
they didn't get this approved. It was really on SLS to have 
done that before they applied.
    So that case was within normal processing times. The staff 
did not see any reason why they should get special treatment. 
They also worried because the EB-5 sort-of pool of individuals 
who were skilled at getting these done was very small, that 
people would figure out that this is a way to game the system.
    As it turns out, after SLS had received this expedite, 
other regional centers did complain about the fact that SLS was 
able to get expedited treatment.
    Chairman McCaul. Then finally, again, did Mr. Mayorkas' 
actions go against his own policy on preferential treatment?
    Mr. Roth. We believe that there was the appearance that 
there was favoritism as a result of this action, yes.
    Chairman McCaul. In the Gulf Coast case, sir, did Mr. 
Mayorkas provide special access and favoritism to current 
Virginia Governor and former chair of the Democratic National 
Committee, Terry McAuliffe, by intervening in this case?
    Mr. Roth. What we found in that case, Congressman, is that 
there was an appeal of a denial of the Gulf Coast application 
for the EB-5 program. Mr. Mayorkas intervened in a way that he 
had never done before by asking to see the draft opinion, by 
commenting on the draft opinion, and having influence into how 
that draft opinion ultimately was decided.
    In our judgment, that created--and this occurred after a 
number of contacts between counsel for Gulf Coast and Mr. 
Mayorkas directly--in our opinion, that created an appearance 
of special access.
    Chairman McCaul. It has been reported that the Gulf Coast 
EB-5 case involved visa applications for Chinese investors to 
manufacture electric cars. What was Hillary Clinton's brother, 
Anthony Rodham's, role in this specific case?
    Mr. Roth. Mr. Rodham was an officer within the Gulf Coast 
Regional Center.
    Chairman McCaul. Sir, did--in your opinion, did USCIS 
career staff perceive that Mr. Mayorkas' actions were 
politically motivated?
    Mr. Roth. Yes. The career staff perceived that there was a 
political component to Mr. Mayorkas' intervention in this.
    Chairman McCaul. According to your report, but for Mr. 
Mayorkas' actions, the career staff would have decided this 
case differently. Is that correct?
    Mr. Roth. That is correct. As I indicated, there had been a 
draft decision that would have denied specific applications on 
specific bases. Mr. Mayorkas' intervention resulted in that 
draft decision being modified substantially, and though--
although it was ultimately denied, it was denied on different 
grounds that left the door open for a subsequent application, 
which was, in fact, approved.
    Chairman McCaul. Then finally, did--again, did this go 
against the policy of USCIS?
    Mr. Roth. The policy against creating an appearance of 
special access and favoritism, yes.
    Chairman McCaul. Based on your investigation, did the DHS 
whistleblowers believe that Mr. Mayorkas' actions favored the 
politically connected and his decisions were politically 
motivated?
    Mr. Roth. Yes.
    Chairman McCaul. Finally, did former Secretary Napolitano's 
office--specifically her chief of staff--play a role in 
directing Deputy Secretary Mayorkas to get involved in these 
individual EB-5 cases?
    Mr. Roth. As we set forth in the report, there was a number 
of communications between some of these investors and either 
the chief of staff for the Secretary or an individual who was 
the assistant secretary for commercial affairs, who then sort-
of intervened with Mr. Mayorkas.
    Chairman McCaul. My time has expired. I have been informed 
that we have a vote on the floor with about 4 minutes left. We 
will adjourn and reconvene after the vote.
    [Recess.]
    Chairman McCaul. The Committee on Homeland Security is 
reconvening.
    The Chairman now recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Inspector General Roth, did Secretary Mayorkas cause any 
decision to be made in your report that is not in accordance 
with the law?
    Mr. Roth. We did not make that conclusion one way or the 
other. We had evidence that the staff who was responsible for 
executing the EB-5 program certainly thought that some of those 
decisions were incorrect.
    Mr. Thompson. Well, you say the staff thought, but you have 
issued a report, and I am saying is there anything in the 
report that would lead you to believe that Mr. Mayorkas did 
something wrong?
    Mr. Roth. With regard to the actual substance of the 
decisions, or on an ethical basis?
    Mr. Thompson. Well, did he break the law?
    Mr. Roth. We looked at a couple things, whether or not he 
violated USCIS policy that he established, and we concluded 
that he had. We also looked at the Standards of Ethical 
Conducts for Employees of the Executive Branch, which governs 
all sort of Executive employees. One of the issues is--or one 
of the commands is that employees shall act impartially and not 
give preferential treatment to a private organization or 
individual.
    Mr. Thompson. I understand the policy and all that, but, 
you know, this man has a substantial career, and one that I 
think should go and give him a little more deference to whether 
he did something right or wrong. I am a little concerned that 
you issued a negative report, but when I asked you did he break 
the law or do anything wrong, you can't say just, ``Yes, he 
broke the law.''
    Mr. Roth. He violated an ethical canon, Congressman, which 
was creating a--he needed to avoid any actions creating the 
appearance that he was violating an ethical standard. Whether 
the particular circumstances creating that appearance have been 
violated shall be determined from the perspective of a 
reasonable person with knowledge of all the relevant facts.
    So what we concluded here, Congressman, is that we are 
unable to determine Mr. Mayorkas' motive for intervening in the 
way he did, but the manner in which he did----
    Mr. Thompson. Excuse me. You know, how in the world are you 
going to determine motive if you are going to be objective?
    That is all right, sir. I mean, I am a little concerned 
that you went a long way to say that he didn't do anything 
wrong. If he did, I want to know.
    I think every Member of this committee would want to know 
if he did something wrong or if he did something that wasn't in 
accordance to the law--not policy, the law.
    You know, all of us are Members of Congress, and we contact 
agencies on behalf of our constituents all the time. It is just 
part of what we do. So I see you described how various 
Democratic public officials contacted USCIS. Are you aware of 
any Republican officials who contacted USCIS on any of these 
projects?
    Mr. Roth. No. Certainly not--we did not receive any 
complaints from employees with regard to special access or 
other extraordinary measures that were taken----
    Mr. Thompson. So in your review----
    Mr. Roth [continuing]. Those projects.
    Mr. Thompson [continuing]. You saw no communication from 
any Republican Member of Congress or any Republican elected 
official or official of the Republican Party?
    Mr. Roth. No. That is not what I am saying, Congressman. 
What I am saying----
    Mr. Thompson. Well, that is what I am saying. I am saying 
if you found that, did you put it in your report?
    Mr. Roth. The CIS program is enormous. It has got 19,000 
employees. It makes 5 million--has 5 million petitions before 
it every year.
    What we did in our investigation was take a look at the 
complaints that we were receiving from employees with regard to 
special access and then determine whether or not those 
complaints had any merit to them. That was the extent of our 
investigation.
    Mr. Thompson. I understand.
    Mr. Roth. We did not review the program in its entirety.
    Mr. Thompson. Well, I am not asking you to review the 
program. But in your review, I would think if you had run 
across a Senator's letter or a Representative's letter on these 
particular projects, you would have included them in your 
report.
    Mr. Roth. As I said, again, what we did was investigate the 
complaints we had received from the whistleblowers to determine 
whether they had merit. In the course of that, basically every 
allegation that we found we tried to run to ground.
    I don't have any recollection of an allegation of 
impropriety or special access other than these three.
    Mr. Thompson. Mr. Roth, I am not asking about allegations. 
I am saying as you looked into the whistleblower complaints, 
did you come across any communication from a Republican 
Senator, a Republican elected official, or an official of the 
Republican or Democratic Party that you didn't include in your 
report?
    Mr. Roth. I mean, there were thousands of routine contacts 
between Members of Congress. But as I sit here today I could 
not tell you specifically what----
    Mr. Thompson. Well, I understand. But you have come down 
and you have listed certain Democrats, and I am just saying 
from a factual standpoint and objectivity, the perception, 
based on this report, is only Democrats advocate for this 
program.
    I want you to say whether or not you came across any 
information on the program--this Gulf Coast project, whether 
there were any Republican officials involved in advocating for 
this project. I think you know there are.
    Mr. Roth. Right. I can guarantee there were thousands of 
Congressional contacts on the EB.
    Mr. Thompson. I am not looking for 1,000. I am just looking 
on this particular project----
    Mr. Roth. Right.
    Mr. Thompson [continuing]. That you talked about.
    Mr. Roth. Sure.
    Mr. Thompson. I don't want to become argumentative, but I 
think if your report is going to really have credence and not 
impugn the integrity of Mr. Mayorkas, when I ask you a 
question, all you have to do is say, ``Look, in our review we 
saw letters from Senators, we saw e-mails from 
Representatives,'' and that is all you have to say.
    I would hope that in your review you did see that. But if 
your reports say, ``We only saw Democrats and I stand on 
that,'' then I would say your report is incomplete.
    Thank you. I yield back.
    Chairman McCaul. Chairman now recognizes Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman. Appreciate that today.
    Thank you guys for coming out today. We are glad to have 
you in this situation for sharing what you found and what you 
have seen.
    One of the things I want to go back to is on Deputy 
Secretary Mayorkas, specifically the involvement EB-5 
applications that were concluded his interventions on technical 
adjudicative matters were corrosive and destabilizing in 
nature. I believe that was the ``corrosive and destabilizing.''
    During the investigation, did any USCIS employees indicate 
that any other director ever had such involvement in cases?
    Mr. Roth. What we found, for example, in the Gulf Coast 
matter, when we talked to the individuals in the administrative 
appeals office, that office is charged by regulation with 
deciding whether the original adjudication was correct and in 
compliance with the law or not. Historically, there has been a 
deference to the administrative appeals office. We asked the 
specific question whether Mr. Mayorkas before the Gulf Coast, 
or any other director, had ever sort-of asked to see an review 
and weigh in on an appeal decision, and the answer was no.
    Mr. Walker. Were you privy to any other discussions as far 
as now-Governor Terry McAuliffe, who is the current Governor of 
Virginia--were there any other discussions that you were 
informed of or knew about with the Gulf Coast situation?
    Mr. Roth. What we found was there was one face-to-face 
meeting between Mr. Mayorkas and Mr. McAuliffe, and then there 
were several telephone calls. We attempted, in determining 
exactly the extent of the calls, to put them in the appendix so 
there was a time line with every contact we were able to find 
between any of the individuals involved in these regional 
centers and Mr. Mayorkas.
    Mr. Walker. Deputy Secretary Mayorkas--did he acknowledge 
that he had this discussion? Did he share the--I guess the 
basic content of his conversation?
    Mr. Roth. Mr. Mayorkas' statement was that he was ordered 
by the Secretary to go and meet with Mr. McAuliffe. He 
consulted with counsel before he did so. Counsel said that in a 
perfect world it would be good not to do this, but understood 
the circumstances and advised Mr. Mayorkas to be in listen-only 
mode. Mr. Mayorkas then met with Mr. McAuliffe. He came back. 
He wrote an e-mail essentially contemporaneously with the 
meeting, said he was in listen-only mode and made no promises. 
When we interviewed Mr. Mayorkas he was consistent in that 
statement.
    Mr. Walker. So he has said basically that he basically 
didn't have any input in it, it was listen-only. That is on 
record?
    Mr. Roth. That is correct.
    Mr. Walker. Okay. Is there any other time that we can go 
back from a chronological standpoint to find out any place 
where he did have input?
    Let me ask another question to follow up on that that can 
expound a little bit more. His posture--has he been willing to 
share and talk through some of this or have you had to come in 
from different ways to get some of the information? I would 
like to know his relationship to you and how forthright he has 
been in some of this discussion.
    Mr. Roth. We interviewed Mr. Mayorkas as we would in any 
sort of normal case like this. It was an extended interview 
with two of our agents that lasted about a day. He was 
completely forthcoming.
    We gave him the opportunity to make a written statement. He 
had a lengthy written statement, which is attached as our 
appendix.
    In the course of our investigation, of course, we tried to 
do an e-mail poll of Mr. Mayorkas' Government e-mail accounts. 
What we found there was, although through no fault of Mr. 
Mayorkas, that the e-mail records within DHS are less than 
complete, so we aren't confident that we have every contact or 
every record regarding this.
    But I would say that he was cooperative with our 
investigation.
    Mr. Walker. In this particular agency, and as your 
experience here in the District of Columbia, when it comes to 
whistleblowers is this an abnormal amount that you have seen 
when it comes to this agency compared to other ones?
    Mr. Roth. This is. I mean, typically in a case we might 
have one or two or even three different whistleblowers. Many 
times you can sort of suss out what those individuals' motives 
are because perhaps they were demoted or some other sort of 
personal issue that happens. Not in every case, but certainly 
that is something that we look at.
    What was unusual in this case was sort-of both the breadth 
of the whistleblowers--so we had individuals within the 
California service center who had personal dealings with Mr. 
Mayorkas, the headquarters unit that sort-of supervised the 
California service center, the EB-5 program office, office of 
counsel, and even in the leadership office within USCIS we 
found individuals.
    Mr. Walker. Thank you, Mr. Roth.
    Mr. Chairman, I yield back.
    Chairman McCaul. Chairman now recognizes Mrs. Watson 
Coleman.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    Thank you both for being here today.
    I would like to speak to you first, Mr. Roth, regarding 
your report. On page 1 of the report you write: In each of 
these three instances that we have been discussing today, but 
for Mr. Mayorkas' intervention, the matter would have been 
decided differently.
    But that doesn't necessarily mean the ultimate resolution 
of the case was decided wrongly. Indeed, your report explicitly 
states that all the key decisions made by Mr. Mayorkas were 
legitimately within his purview. You took no position as to the 
wisdom of any of these decisions--these actions.
    Would you agree that it is reasonable for the agency 
leadership to take action when necessary to ensure fair and 
consistent administration of a program?
    Mr. Roth. Absolutely. That is well within the director's 
prerogative to do so.
    To clarify what we said in the report was that it was 
within his prerogative to make these large, policy-based 
decisions as to the direction of the agency. The reason that we 
said that was to ensure--and this is certainly a question that 
we asked ourselves, was this a mere disagreement as to the 
direction of the USCIS and the EB-5 program? If there was a 
resentment with regard to that, of course that is entirely Mr. 
Mayorkas' call.
    But what we did find was with regard to the specific 
decisions that we are talking about here, there was significant 
resentment and significant disagreement within USCIS as to the 
ultimate decision.
    Mrs. Watson Coleman. That is why there is a chain of 
command and why certain decision levels are vested in certain 
positions as opposed to lower-ranking individuals. I mean, so, 
I mean, that can be a given. That can be a finding that there 
was, indeed, resentment.
    But there doesn't seem to be any finding of anything else 
that gives us particular pause here, because referring to these 
EB-5 cases that are the focus of your report, again on page 1 
your write, ``In each of these instances, but for Mayorkas' 
intervention, the matter would have been decided differently.'' 
However, I can't find further support for this assertion 
elsewhere in the report.
    In fact, the only other time that I see that this is spoken 
to about this issue is on page 3 where it says only that 
according to the employees who complained to you, but for 
Mayorkas' action the career staff would have decided these 
matters differently. That is a very different assertion.
    In the first instance you write that but for his actions 
the case would in fact have been decided differently, but later 
you write only that certain employees believed that but for his 
actions the cases would have been decided differently. Is it 
fair to say that the report concluded that certain employees 
believed Mr. Mayorkas' involvement in these three cases changed 
the outcome of the cases but that the report, in fact, did not 
conclude or establish that Mr. Mayorkas' involvement in fact 
changed the outcome of the cases?
    Mr. Roth. What we found in each of these three instances--
and this was not simply us talking to individuals, but we found 
documented evidence with regard to that. So, for example, in--
--
    Mrs. Watson Coleman. With regard to what?
    Mr. Roth. With regard to the fact that the staff was going 
in a certain direction. So, for example, in the L.A. Films 
case, there were denials--draft denials already there. Mr. 
Mayorkas, in fact, had approved those draft denials, and then 
there was a call between Mr. Mayorkas and Mr. Rendell, and then 
Mr. Mayorkas ordered the reversal of that. So that is in the 
L.A. Films case.
    Mrs. Watson Coleman. Well, that in and of itself may not 
mean anything more than additional information upon which to 
make a decision was being offered at that time. That doesn't 
suggest that anything illegitimate took place.
    Mr. Roth. We asked Mr. Mayorkas about his contact with Mr. 
Rendell. He has no recollection of that. He asserts that Mr. 
Rendell's contact had nothing to do with his decision to 
reverse it, but he could not articulate the basis by which he 
decided to have those cases reversed.
    Mrs. Watson Coleman. But do you have proof that there was 
indeed contact directly between Mr. Mayorkas and Mr. Rendell?
    Mr. Roth. Yes.
    Mrs. Watson Coleman. What is that?
    Mr. Roth. Telephone records and a calendar appointment.
    Mrs. Watson Coleman. Mr. Mayorkas' calendar?
    Mr. Roth. Correct.
    Mrs. Watson Coleman. Well, first of all, what--I believe 
that Ms. Odom made some references--and correct me if I am 
wrong--that during this time that Mr. Mayorkas was in charge of 
the division that it had some administrative and organizational 
deficiencies and that he was sort of hands-on in trying to get 
some consistency and organization to this organization. This is 
part of a department that seems to be under fire all the time 
for its leadership and for the fact that it became a department 
of various divisions that had no relationship before and that 
there might already be this morale situation and resentment 
that existed.
    So would it be unusual for someone at that juncture in 
their operation to sort-of be more hands-on in cases that--in 
some cases versus other cases? Is there any reason to believe 
that there is anything other than that with regard to Mr. 
Mayorkas?
    Ms. Odom.
    Ms. Odom. Thank you, Congresswoman. Thank you for your 
question.
    We have to go back to what was happening with the EB-5 
program in 2011, 2012, 2013--a program that was suffering from 
a lot of problems, including inconsistencies in the quality of 
these complex adjudications; problems in long delays, many of 
which were caused by lengthy National security checks and other 
background checks which were necessary, as well as gaps in 
policy that created a host of problems for a program that, one, 
is complex, has to deal with large projects and large 
investments, as you have heard.
    This was a priority for the director. He was working to 
revamp, to reform this program. There was active engagement 
with stakeholders not just pertaining to these three cases.
    Our office, our ombudsman's office, saw a rise in the 
number of inquiries to our office, a need for increased 
engagement. In fact, we hosted a stakeholder engagement in 
March 2013 to go through some of the problems that were being 
reported.
    All of that coupled by a dysfunctional e-mail system that 
was created to answer inquiries regarding the EB-5 program. At 
the point I assumed office in 2012, even the ombudsman's office 
was experiencing challenges in receiving responses through the 
EB-5 e-mail system. So if that was the process that was set up 
to address stakeholder concerns and specific case inquiries, it 
was very broken.
    Coupled with other issues that the director tried to 
address through the new policy guidance that he issued in 2013, 
and finally, a very severe backlog with the administrative 
appeals office that is the internal appellate body within 
USCIS, that caused great frustration among the stakeholders in 
the EB-5 area.
    Mrs. Watson Coleman. Thank you.
    If I might, one last question? One eeny-weeny-teeny-dweeny 
little bit question? This is for the Inspector General.
    Beyond the three complaints that were alleged by the 15 
employees, have you done any other investigations of 
applications and the processes that have been used, and have 
you found any irregularities that you needed to bring to our 
attention in conjunction with our hearing?
    Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. Chairman now recognizes Mr. Katko.
    Mrs. Watson Coleman. Pretty please answer the question?
    Chairman McCaul. Oh, I apologize.
    Yes, please answer the question.
    Mr. Roth. In the 3 years that we looked at, there were 
approximately 700 different applications to regional centers, 
so what our investigation did was functionally pull all the e-
mails related to the EB-5 program. The e-mails that we found 
largely centered on these three cases. Where we found other e-
mails, we tried to chase them down and see if there were any 
irregularities; we did not find any irregularities that would 
give us any pause.
    Mrs. Watson Coleman. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCaul. Chairman now recognizes Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    At the outset I want to note, Mr. Roth, I have been working 
with you on my Transportation Security Subcommittee, and I have 
been very appreciative of your command of the facts and the 
thoroughness with which you do your reports, so thank you very 
much.
    Ms. Odom, it is nice to meet you, as well.
    Ms. Odom, just a quick question--and I am sorry, I have 
been in and out, so in case I missed it--are you familiar with 
the general facts of the Inspector General's report?
    Ms. Odom. I had the opportunity to read it when it was 
released.
    Mr. Katko. Are there any facts in that report that he 
raises that give you pause for concern about Mr. Mayorkas' 
conduct?
    Ms. Odom. Of course, I am reading the report in the context 
of the--how the audit was framed. I was not part of, you know, 
selecting the witnesses that came forward and that spoke to the 
Inspector General.
    I think that what I read in the report was consistent with 
what was happening in the stakeholder community in the EB-5 
program around the years in question, and I also--what I read 
is also consistent with the management style that I saw from 
Director Mayorkas when we worked together to resolve problems 
at USCIS.
    Mr. Katko. So your answer is that you don't have any pause 
for concern about Mr. Mayorkas' conduct, assuming the facts, as 
stated in the report, are true?
    Ms. Odom. I can't comment on whether or not the report that 
Inspector General Roth issued is reasonable or whether it 
contains facts that are true or not, but I can conclude that it 
was consistent with our--the department's engagement in the EB-
5 area.
    What I saw was someone who was actively involved in 
reforming and transforming the EB-5 program, something we have 
reported on in our annual report--issues as well as progress. 
In the way he handled those inquiries, which were coming from 
many different directions, not just in the EB-5 program, but 
stakeholders have taken every opportunity to reach out to 
leadership at DHS pertaining to a host of immigration issues.
    Mr. Katko. Yes or no, did you have any problems with any of 
the--anything stated in the report regarding Mr. Mayorkas' 
conduct?
    Ms. Odom. I do not have any problems that I can highlight 
to you today.
    Mr. Katko. Okay. Thank you.
    Now, Mr. Roth, a question for you if I may, sir. I want to 
kind of set up a time line if I can. Could you tell me the 
conduct that you have raised in this report--could you tell me 
when the first act was and when the last act was?
    Mr. Roth. Sure. The first act, I think, is in approximately 
July 2011, and then the last act would be sometime late spring 
2013. To be precise on this, we have a time line of all the 
contacts that we were able to discover, and if you excuse my 
fumbling I will find it.
    So Gulf Coast filed its first application in July 2008, but 
really the thing didn't get started until about July 2010, and 
then there are contacts starting in July 2010. With regard to 
L.A. Films, the original application was in 2008, but again, 
things did not truly start to heat up until September 2010 and 
then into 2011.
    Mr. Katko. Okay. So basically the general time frame of the 
alleged allegations--I mean, of the facts you point to for Mr. 
Mayorkas is July 2011 to late spring of 2013.
    Mr. Roth. That is correct.
    Mr. Katko. Okay. When did you start your investigation?
    Mr. Roth. I know that we received complaints about this but 
did not truly start the investigation. I am going to have to 
get back to you on the specific date on which we started the 
investigation.
    Mr. Katko. A general----
    Mr. Roth. Say again?
    Mr. Katko. General start date, approximate----
    Mr. Roth. It would have been in, obviously, 2013. But 
again, I apologize for not having that exact date.
    Mr. Katko. It is all right. Now, the next question I have 
for you is do you know when Mr. Mayorkas was nominated to his 
current position at DHS?
    Mr. Roth. I do not.
    Mr. Katko. Okay.
    Do you know, Ms. Odom?
    Ms. Odom. It was either June or July 2013, if I recall 
correctly.
    Mr. Katko. Okay. So June or July 2013. So the alleged 
conduct here took place until late spring 2013, and shortly 
thereafter Mr. Mayorkas was nominated for DHS.
    Ms. Odom. It was in the summer, yes, Congressman.
    Mr. Katko. Okay. Do you know when he--do you know who was 
behind that nomination, who made the nomination?
    Ms. Odom. No, sir.
    Mr. Katko. Okay. Do you know when the hearings took place 
regarding his nomination?
    Ms. Odom. It was right around the same time, sir. If I 
recall correctly, it would have been right close to the time 
that he was nominated.
    Mr. Katko. So I believe there was one in July 2013, and I 
believe the second hearing was in December 2013. Is that your 
general recollection?
    Ms. Odom. That is about right.
    Mr. Katko. Okay. He was confirmed soon thereafter.
    Okay. Now, Ms. Odom, you are familiar with the structure at 
Homeland Security, correct?
    Ms. Odom. Correct.
    Mr. Katko. All right. Is it fair to say that going from the 
position Mr. Mayorkas had with your office to the No. 2 
position at DHS was a ascension, if you will? It was a bigger 
job?
    Ms. Odom. Well, certainly a promotion. I do not work for 
USCIS, but I--it is definitely a position of higher rank in the 
Department.
    Mr. Katko. Okay. Thank you.
    I yield my time.
    Chairman McCaul. Chairman now recognizes Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    So, Mr. Roth, I just want to go through the specifics of 
how the decisions would have been--how they were changed and 
how outside the normal--I mean, out of all of the cases that 
you have looked at were there ever decisions that were changed 
with or without the involvement of someone at Mr. Mayorkas' 
level?
    Mr. Roth. What we found, for example--and I will start with 
the L.A. Films Three, which was the Sony project. What we found 
was that, you know, we have an e-mail at a specific time, which 
is on page 17--July 7. There is an e-mail that basically 
reflects the fact that Mr. Mayorkas had approved the denial of 
these Sony things.
    Miss Rice. What was the basis of the denial?
    Mr. Roth. The basis of the denial was the lack of--the 
largest issue was the fact that there was not a what was called 
a commitment letter. In other words, Sony had the option to 
take this 
EB-5 money, but they didn't have the requirement to take the 
money. So in other words, they weren't bound to take the money.
    Why that is important in the EB-5 program is these 
investors invest this money into this regional center, they get 
a temporary green card for 2 years. At the end of 2 years they 
have to prove that jobs, in fact, were created.
    What they had seen before--for example, we talk about this 
Lions Gate Entertainment that was L.A. Films One. There was 
this non-commitment letter, so these folks got a temporary 
green card, but then Lions Gate never used the money because 
they were not contractually obligated to use the money. 
Therefore, these investors--these alien investors--were 
rejected for permanent residency as a result of that.
    So there had been a decision relatively early on that this 
was not an appropriate investment vehicle because of the 
contingent nature of a non-commitment letter.
    Miss Rice. So what changed? Then Mayorkas' decision allowed 
them what?
    Mr. Roth. So, as I said, in July 7 there was the decision 
to issue the denials, largely based on the sort-of this non-
commitment letter, but there were a few other issues with 
regard to job creation. Were these jobs temporary jobs, 
seasonal jobs, permanent jobs? Did they actually create jobs or 
were these jobs that had been creative absent the EB-5 program?
    But then again, there was a call on July 15, so, you know, 
7 days later, 6 days later, and then within an hour of that 
call--we don't know the contents of that call; Mr. Mayorkas 
can't remember what was in the call----
    Miss Rice. It was between him and----
    Mr. Roth. Mr. Rendell.
    Miss Rice. Right.
    Mr. Roth. Then it was--and remember, some of these denials 
had already gone out by this time. There was an instruction 
from Mr. Mayorkas, ``Pull back those denials and stop issuing 
other denials.''
    So that would be--and this is true in other cases where 
there were--for example, in the Gulf Coast there was a 
preliminary opinion, a draft opinion that would have been 
issued but for Mr. Mayorkas taking the unusual step of 
intervening and wanting to review the opinion.
    Miss Rice. These are the only three cases that Mr. Mayorkas 
intervened in out of the 700 that you looked at?
    Mr. Roth. These are the ones that we found. Again, what we 
did to--you know, it is an enormous program, right? I mean, 
there are 700 regional centers. We did not look at every 700 
regional center.
    What we did was we followed sort-of the logical 
investigative steps you would think we would do, which is we 
talked to individuals, but we also did an e-mail poll and 
examined all the e-mails with, you know, those kinds of search 
terms you would expect to see used: EB-5, regional center, 
those kinds of things. Largely, these are the only ones we 
found that were noteworthy.
    I will say----
    Miss Rice. But there could be other ones.
    Mr. Roth. I will say that he was a very hands-on manager, 
and there is nothing wrong with being a hands-on manager. I am 
a very hands-on manager. You can't----
    Miss Rice. I can tell.
    Mr. Roth. Good. You couldn't handle these stacks without 
it.
    The problem is the juxtapositioning of contacts that the 
staff may or may not be aware of----
    Miss Rice. Oh, believe me, I hear you.
    Mr. Roth [continuing]. Immediate----
    Miss Rice. I hear it.
    Mr. Roth. So it is not the fact that he is a hands-on 
manager. I applaud that.
    Miss Rice. But we have made it clear that he hasn't done 
anything to break the law. It is just a question of setting up 
parameters of when someone in this position would get involved 
in cases, and was that done on a specific basis.
    In the L.A. Films case, Mr. Roth, did you find any 
indication that a former Congressman by the name of Dan Lungren 
had weighed in on this decision at all? Who happens to be a 
Republican, I might add.
    Mr. Roth. I don't know, and I will find out for you.
    Miss Rice. If you could. I want to just move on because my 
time is almost done.
    On the Las Vegas case, did you have any indication or did 
you see any indication that a Republican Senator by the name of 
Senator Heller, from Nevada, weighed in on the Las Vegas case 
at all?
    Mr. Roth. Again, on that one I will have to get back to 
you. I don't have a recollection of that but----
    Miss Rice. Okay.
    Mr. Roth [continuing]. We can certainly find out----
    Miss Rice. No, I appreciate if you would do that because 
actually that would, I think, change the whole tenor of what we 
are talking about here, and it becomes not a political decision 
that Mr. Mayorkas might have made, but one that--where he was 
attending to requests by Members of Congress across the--a 
broad political spectrum. Would you agree?
    Mr. Roth. Correct. This is certainly not, from my point of 
view, something about party affiliation. This is what the 
staff's reaction was as a result of this conduct and whether 
that reaction was a reasonable reaction. That is what the 
ethical standards say.
    I completely understand and completely agree if people have 
a different judgment as to what was reasonable for Mr. Mayorkas 
to do.
    Miss Rice. I agree with you, and I think that, you know, as 
you said, you cannot get into Mr. Mayorkas' head and figure out 
what motivated him to do what he did. So, too, is it almost 
impossible to get into the heads of the employees and 
understand what their motive was to complain about this 
situation.
    But I thank you very much, Mr. Roth.
    I yield back my time, Mr. Chairman.
    Chairman McCaul. Chairman recognizes Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman.
    As the Chairman noted previously, I am one of the former 
Federal prosecutors that serves on this committee, and from 
that perspective I would like to make sure, Inspector General 
Roth, that I understand the summary of your investigation. So 
you conducted 50 interviews?
    Mr. Roth. In excess of 50 employee interviews.
    Mr. Ratcliffe. Okay. That included at least 15 USCIS 
employees, including senior managers?
    Mr. Roth. The 15 employees I refer to are the ones who had 
first-hand contact with Mr. Mayorkas that had concerns as to 
improper access.
    Mr. Ratcliffe. Okay. Your investigation included a review 
of more than 40,000 telephone calls?
    Mr. Roth. Telephone records, yes.
    Mr. Ratcliffe. Records. I am sorry. Telephone records.
    In aggregate, more than 1 million e-mails and other 
documents?
    Mr. Roth. Correct. We polled 1 million e-mails; that didn't 
mean we read a million e-mails, but we did searches off that 
poll.
    Mr. Ratcliffe. All right. What length of time did this 
investigation occur over?
    Mr. Roth. Several years.
    Mr. Ratcliffe. All right. Well, it certainly seems, from my 
perspective, very thorough and consistent with your training as 
a former assistant U.S. attorney, so I commend you on that.
    So let me talk about some of the conclusions that come out 
of your investigation. You have had a number of questions about 
whether or not Deputy Secretary Mayorkas violated the law. Talk 
a little bit so I want to make sure everyone is very clear 
about what the charge was with respect to your investigation. 
Was it to adjudicate guilt or innocence?
    Mr. Roth. It was not. It was to find facts and compare what 
we found against both USCIS policy as well as the ethical 
standards by which we are bound.
    Mr. Ratcliffe. All right, so investigate and find facts, 
make certain conclusions as to where they may go, but 
ultimately guilt or innocence would be decided by another trier 
of fact if the facts would allow that.
    Mr. Roth. Correct. Our job on any misconduct investigation 
is to write a report and then give it to the individual who is 
responsible for that employee.
    Mr. Ratcliffe. Okay. So with respect to the conclusions of 
your investigation, your investigation found that Deputy 
Secretary Mayorkas pressured USCIS employees to depart from 
USCIS policies and procedures, correct?
    Mr. Roth. Yes.
    Mr. Ratcliffe. Okay. Did I hear your testimony earlier 
today to also depart from statutes and regulations that pertain 
to the 
EB-5 program?
    Mr. Roth. It was internal USCIS policies.
    Mr. Ratcliffe. Okay. But all of these pertaining to the 
management of EB-5 visa program?
    Mr. Roth. That is what we looked at, yes.
    Mr. Ratcliffe. All right. This happened on at least three 
occasions?
    Mr. Roth. Correct.
    Mr. Ratcliffe. All right. In each of those three occasions 
these extraordinary departures benefited prominent Democratic 
Republicans, including former Democratic Governors and 
employees of Bill and Hillary Clinton, including Hillary 
Clinton's own brother, correct?
    Mr. Roth. My conclusion is that the staff perceived that 
the influence was a result of politically connected people. I 
don't think there was a lot of conversation about sort-of party 
affiliation.
    Mr. Ratcliffe. Okay. But in each of these three your 
investigation included--and I--the words that you used earlier, 
``but for'' these extraordinary departures and Deputy Secretary 
Mayorkas' intervention, the result in each of these EB-5 
matters would have been different.
    Mr. Roth. That is correct.
    Mr. Ratcliffe. All right. You detailed earlier some of the 
ways in which the staff felt pressured?
    Mr. Roth. Yes.
    Mr. Ratcliffe. All right. How has this affected the morale?
    Mr. Roth. Our perception is that the morale was lowered as 
a result. At least the people who were affected, their morale 
was lowered.
    Mr. Ratcliffe. All right. Well, you know, as a former 
prosecutor I know that there are two sides to any set of facts, 
but I also want to commend you again, Inspector General. I 
think you put together a very thorough investigation. I think 
it shows compelling, if not overwhelming, evidence, and so I 
thank you for that.
    I thank Ombudsman Odom for being here. I wish I had more 
time for questions.
    Mr. Chairman, I thank you for calling this hearing and for 
your willingness to bring us back so that we all may have the 
opportunity to question Deputy Secretary Mayorkas. I yield 
back.
    Chairman McCaul. Thank the gentleman.
    Chairman recognizes Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    I thank you for your testimony today.
    I join some of my colleagues in certainly being concerned, 
based on the thoroughness and the conclusions of your report, 
that there have not been any consequences towards the 
impropriety, and in fact, a promotion to the individual 
involved. So I think we do need some follow-up on that.
    I want to ask a specific question about the deference 
review board that you mentioned in your report. My 
understanding is Mr. Mayorkas created this specifically to help 
petition for L.A. Films.
    Was there any precedent for the creation of a board like 
this, and were the policies for the board ever formally 
established, approved, or documented?
    Mr. Roth. No. There was basically an announcement by Mr. 
Mayorkas via e-mail that he was concerned about inconsistent 
applications. He sent out an e-mail that basically said, 
effective immediately, we are going to have this--he didn't 
call it a deference review board, but he called it, I believe, 
a review board.
    There was great pressure to do this immediately. No 
policies had been set up. Office of Chief Counsel had some 
concerns as to how this fit with the regulatory scheme and 
whether there were going to be violations of the Administrative 
Procedures Act and the like.
    All that is set forth basically on page 25 and 26 of my 
report.
    Ms. McSally. Okay. But none of the policies of this quote-
unquote board were ever written down, codified, or ever used 
again, right?
    Mr. Roth. Correct.
    Ms. McSally. Okay. What was the career staff's impression 
of this board?
    Mr. Roth. There was a meeting on January 30 in which this 
was discussed between Mr. Mayorkas and the career staff, and 
that is on page 26. One of the participants of the meeting said 
the meeting left a clear impression that the director and his 
chief of staff wanted to accommodate L.A. Films and Tom 
Rosenfeld, was the president of the L.A.--the regional center.
    There was a--to some of the staff--a very disturbing 
incident that occurred at the conclusion of that meeting, which 
was as they were leaving they overheard the fact that there was 
a telephone call from Tom Rosenfeld, so this was an affected 
party who was part of this. One of the individuals who 
understood what was going on said that the appearance of 
impropriety was overwhelming, that that official ultimately 
reported the appearance concern to his supervisor, who in turn 
talked to an ethics official within USCIS.
    I think it is a matter--to protect this individual's job 
they sort-of did it in a hypothetical fashion, ``assuming this 
happened,'' but didn't mention Mr. Mayorkas. The conclusion of 
the ethics official within CIS was that this ought to be 
reported to either the Office of Inspector General or the 
Office of Special Counsel.
    Ms. McSally. Okay. Thank you.
    Moving on to a different topic, in response to the 
allegations of Deputy Secretary Mayorkas improperly pressuring 
USCIS employees to expedite the SLS hotel and casino case in 
Las Vegas, he cited a Department of Commerce letter that stated 
the application was eligible for expedited processing, and on 
closer examination the Commerce employee who wrote the letter, 
Steve Olson, was a former employee of Mr. Mayorkas. It has also 
been alleged that Mr. Mayorkas actually requested that this 
letter be written.
    In your investigation, did you find any evidence to support 
this allegation? Are writing letters of this kind something 
that falls within the description of Mr. Olson's job?
    Mr. Roth. We did not--our examination is, of course, only 
of DHS employees and not, for example, Department of Commerce 
individuals. Certainly the staff's reaction to this--and this 
was something that we obviously focused on--was that they 
believed and couldn't understand how it was that Mr. Olson even 
knew about the project and how it was to--you know, who to 
write the letter to.
    You know, one of the individuals sort-of was opining that, 
you know, ``I don't recall seeing these folks opine before and 
I wonder how they even know who to send this to. I fear we are 
entering a whole new phase of yuck.''
    Ms. McSally. Okay, great. Thank you. In your opinion, would 
the letter have reached the same conclusion if it were written 
by somebody without connections to USCIS leadership?
    Mr. Roth. I can't determine that.
    Ms. McSally. Okay. Thank you.
    Just one final question on the status of the 
whistleblowers. You know, these people have come forward and 
provided this information. Clearly a large number concerned 
about impropriety.
    I mean, what is their professional status? Are they all 
still there? Have any been promoted? I mean, we are just always 
concerned about protecting whistleblowers, especially when the 
perpetrator is still within the Department.
    Mr. Roth. You know, we are always worried about that. We 
have, you know, obviously, very strong whistleblower protection 
laws.
    We advertise to the entire DHS population about sort-of 
their rights under that. In fact, within the first couple 
months that I started this job I was able to send an e-mail to 
all 225,000 employees within DHS.
    I am confident that if there is any sort-of attempt at 
retaliation that we will hear about it and we will investigate.
    Ms. McSally. Are they still all employed by USCIS, to your 
knowledge?
    Mr. Roth. I don't have the answer----
    Ms. McSally. Okay.
    Mr. Roth [continuing]. To that question off-hand.
    Ms. McSally. If we could just follow up if they are still 
in USCIS or even in DHS, just what is their status. Thank you. 
Appreciate it.
    Thank you, Mr. Chairman. Yield back.
    Chairman McCaul. The Chairman recognizes Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Thank you for your testimony this morning.
    I would like to move directly to the Gulf Coast Funds 
Management Regional Center. What I understand is this that Gulf 
Coast petition to invest in GreenTech Automotive--and according 
to what I have here, whose chairman at the time was Terry 
McAuliffe, the current Governor of Virginia. It says further 
that it is clear that Mr. Mayorkas was put under intense 
pressure by McAuliffe, who, according to Mayorkas, left him a 
voicemail led--laced with expletives at high volume.
    When the terminology ``put under intense pressure,'' I am 
certain that--or I am relatively confident that Mr. Mayorkas 
can withstand a verbal dressing down, but can you characterize 
what you think would have led to the intense pressure? Was it 
just the volume or the expletives, or was there potentially 
something more and what might that be?
    Mr. Roth. I think you are reading from Mr. Mayorkas' 
written statement. We did not make that characterization of 
intense pressure.
    Mr. Perry. He did.
    Mr. Roth. I can't really sort of opine or comment----
    Mr. Perry. He provided no further details about what that 
intense pressure would be?
    Mr. Roth. No.
    Mr. Perry. Whose job would it be to go out and go back to 
him and find out exactly what that pressure is? We are talking 
about, obviously, taxpayer money here and the misdirection of 
that, and so I think it would be important for us to know if 
there is undue pressure being placed on individuals within the 
administration, how that is happening, and who is perpetrating 
that.
    Would that not be your job? Or whose job would that be?
    Mr. Roth. We are responsible for looking at the conduct of 
U.S.--of DHS employees, not sort-of external parties. You know, 
we get external inquiries all the time.
    Mr. Perry. Okay.
    Mr. Roth. We do with those what we do with them, but we are 
obviously always obligated to follow the law and the ethics.
    Mr. Perry. Does it appear that there was criminal activity 
here at all to you? Are you familiar? Would you know if it was? 
Who would determine that?
    Mr. Roth. We do not believe that there was criminal 
activity involved. We had early on consulted with the 
Department of Justice public integrity section. I am a 
prosecutor of 25 years' duration. We have not seen any kind of 
action that we believe violates criminal law.
    Mr. Perry. Let me ask you if you know, regarding this undue 
or this intense pressure, what would cross the line? What would 
lead you to believe that something that, you know, would be of 
criminal intent or action would cross the line regarding the 
malfeasance or alleged or potential malfeasance?
    Mr. Roth. I can't tell you exactly what it would take to 
reach that.
    Mr. Perry. Okay.
    Mr. Roth. That simply is not something we looked at. 
Obviously if it were bribery then that would be a separate 
crime, and there is a whole series of things.
    But as far as intense pressure, yelling at someone or 
something like that, as far as I can conceive, that is not--
and, you know, that is one of the things that we have to be--I 
want to make sure that people understand is that we aren't 
looking at sort-of the outside folks, the owners of the 
regional centers, their conduct. We are only looking at what 
occurred within DHS.
    Mr. Perry. No, I understand. But my concern is that while 
you are--doing your job very well, that maybe it falls outside 
your purview if that is indeed the case, and that some of these 
folks that may have engaged in undue pressure which leads to 
malfeasance and potentially fraud, that they are left to walk 
away without that--you know, the public knowing that, and so--
but we can explore that later.
    Let me move on to another instance here regarding the--
these two separate movie projects with Sony and Time Warner, 
where it says after an engagement with Tom Rosenfeld with CanAm 
Productions, and former Governor Rendell, where I guess the--
Mr. Mayorkas was told that--the projects need to be approved. 
What do you suspect--what changed the trajectory, I mean if 
that is the case? Did you get any indication of that?
    Mr. Roth. Well, as I indicated, there were two different 
sort-of L.A. Films projects--L.A. Films Three and L.A. Films 
Four, for our purposes. There was contact between Mr. Rendell 
and Mr. Mayorkas on each of those.
    As I said, there was a track to deny the L.A. Films Three 
petitions that was essentially reversed.
    Mr. Perry. So they are on-track to be denied, and then 
after a phone call then things reverse--things are reversed. 
Obviously find that suspicious. Is that a fair 
characterization?
    Mr. Roth. I think it was troubling both to the employees, 
who didn't understand how it was----
    Mr. Perry. What in that phone call would have made the 
difference? Is it information that would have made the 
difference, or was it--or do you suspect it was pressure? Did--
was pressure alluded to?
    Mr. Roth. We have no information one way or the other.
    Mr. Perry. Okay. My time is expired.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thank the gentleman.
    Seeing no further Members to ask questions, I want to thank 
the witnesses for your valuable testimony, Mr. Roth, your 
extensive investigation. We look forward to hearing from Mr. 
Mayorkas and his response to these allegations.
    The hearing record will be open for 10 days. Witnesses may 
have additional questions in writing.
    Without objection, the committee now stands adjourned.
    [Whereupon, at 11:11 a.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Chairman Michael T. McCaul for Maria M. Odom
    Question 1a. In the March 24, 2015 OIG report regarding the 
investigation of the management of USCIS's EB-5 program, it is noted 
that during the ``Gulf Coast Case,'' your office was contacted on 12/
05/2012 and 12/14/2012, and on 1/10/2013 you met with Mr. Mayorkas. 
Please describe your involvement in this case.
    Answer. In 2012, Gulf Coast Funds Management, Ltd. (Gulf Coast) 
contacted the Office of the Citizenship and Immigration Services 
Ombudsman (Ombudsman's Office) with regard to 21 petitions with which 
it had experienced delays and other administrative difficulties. These 
petitions included Forms I-924, Application for Regional Center Under 
the Immigrant Investor Pilot Program, Forms I-829, Petition by 
Entrepreneur to Remove Conditions, and Forms I-526, Petition by Alien 
Entrepreneur. 
    The Ombudsman's Office correspondence with Gulf Coast was handled, 
according to established protocols, by CISOMB managers and Immigration 
Law Analysts involved in processing employment-related requests for 
case assistance. All of the correspondence was routine; it included: 
Discussions regarding the consent forms necessary to evaluate and 
process Gulf Coast's requests for assistance; the information necessary 
to obtain case updates from USCIS; and verification of legal 
representation in order to allow communication with the attorneys 
representing parties in these matters.
    The specific issue raised by Gulf Coast in some of these matters--
delays in the adjudication of immigration benefits applications--is one 
of the most common reasons individuals and employers request assistance 
from the Ombudsman's Office. Gulf Coast did not request any unusual or 
extraordinary forms of assistance or relief; it asked only that the 
adjudication of its Forms I-924, I-829, and I-526 be completed in a 
timely fashion. The Ombudsman's Office did not take action on Gulf 
Coast matters that were within USCIS's posted processing times. 
Communications pertaining to these matters were made using channels 
available to the public when seeking Ombudsman's Office case 
assistance.
    I did not meet with Mr. Mayorkas on January 10, 2013. On January 9, 
2013, my leadership team and I met with Mr. Mayorkas and the USCIS 
leadership team, pursuant to Homeland Security Act section 452(d).\1\ 
We discussed a variety of issues including systemic problems in the EB-
5 program. We did not discuss any individual EB-5 case matters.
---------------------------------------------------------------------------
    \1\ Section 452(d) of the Homeland Security Act of 2002 states, in 
relevant part, ``The Ombudsman . . . shall meet regularly with the 
Director of the Bureau of Citizenship and Immigration Services to 
identify serious service problems and to present recommendations for 
such administrative action as may be appropriate to resolve problems 
encountered by individuals and employers.''
---------------------------------------------------------------------------
    Question 1b. In your opinion, in reviewing the case documents, did 
you believe the case warranted special attention from headquarters and 
from the Director?
    Answer. I believed at the time that processing delays and gaps in 
policy in the EB-5 program specifically warranted attention from USCIS 
Headquarters and Mr. Mayorkas. Some of the Gulf Coast cases were among 
those experiencing adjudication delays.
    Question 1c. Did you monitor the case until the fourth amendment 
was approved on 2/12/2014?
    Answer. No. All Gulf Coast requests for case assistance were closed 
by the Ombudsman's Office by early May 2013.
    Question 1d. During the adjudication process of any other cases, 
did you personally meet with Director Mayorkas, or any other USCIS 
Director, to discuss the proceedings of the case?
    Answer. No. I did not personally meet with Mr. Mayorkas, or any 
other USCIS Director, to discuss the Gulf Coast case matters.
    Question 2a. Please list all recourse steps (petitions for help) 
available for investors during the EB-5 application and adjudication 
process.
    At what point during this process (adjudication) are each specific 
avenue for recourse available for use?
    Answer. EB-5 applicants and petitioners are able to request 
information about their specific cases at various points during the EB-
5 adjudication process.
    EB-5 petitioners and applicants may seek information through a 
variety of ways, including:
  <bullet> Inquiring through the Immigrant Investor Program Office 
        mailbox at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5005031319037e193d3d393722313e24193e263523243f2200223f3722313d1025233339237e3438237e373f26">[email&#160;protected]</a>;
  <bullet> Participating in and keeping abreast of information provided 
        through USCIS' National stakeholder engagements and USCIS 
        social media outlets;
  <bullet> Corresponding through USCIS' public mailbox for general 
        questions at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="277752454b4e44096249404640424a424953675254444e5409434f5409404851">[email&#160;protected]</a>;
  <bullet> Working with their Congressional representatives and/or the 
        DHS CIS Ombudsman;
  <bullet> Accessing case status information by using USCIS' on-line 
        customer service tools, such as E-Request, Change of Address, 
        and MyUSCIS at https://egov.uscis.gov/casestatus/landing.do;
  <bullet> Contacting the USCIS National Customer Service Center (1-
        800-375-5283, TDD for the Hearing Impaired 1-800-767-1833) for 
        24-hour telephone assistance.
    After a decision has been rendered, if it is a denial, an applicant 
or petitioner can file a motion to reopen or reconsider to request that 
the original decision be reviewed. Additionally, if the applicant or 
petitioner would like to request that the case be reviewed de novo by 
the Administrative Appeals Office, information about how to appeal an 
adverse decision is contained in the relevant written notice of 
decision sent to the applicant or petitioner. More information on 
appeals and motions can be found at http://www.uscis.gov/forms/
questions-and-answers-appeals-and-motions.
    The USCIS website (www.uscis.gov) also provides valuable 
information such as executive summaries, evidentiary tips, leadership 
remarks, public notices, lists of approved and terminated regional 
centers, policy memos, EB-5 precedent decisions, and links to other 
resources, such as websites for the Securities and Exchange Commission 
and the Internal Revenue Service.
    Finally, petitioners and applicants may request an expedited review 
of their case if they believe the case fits within the USCIS expedite 
criteria, found at www.uscis.gov /forms/expedite-criteria.
    Question 2b. Are the various recourse steps easily accessible to 
investors?
    Anwer. The Ombudsman's Office believes that the USCIS customer 
service avenues are easily accessible for EB-5 petitioners and 
applicants. However, during the 2012 and 2013 time period, responses to 
customer service inquiries often were delayed or conveyed limited 
information.


ALLEGATIONS OF SPECIAL ACCESS AND POLITICAL INFLUENCE AT THE DEPARTMENT 
                          OF HOMELAND SECURITY

                              ----------                              


                        Thursday, April 30, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:12 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Perry, Clawson, Katko, 
Carter, Walker, Loudermilk, Thompson, Jackson Lee, Keating, 
Watson Coleman, Rice, and Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The purpose of this hearing is to receive testimony 
regarding the Immigrant Investor Program, known as the EB-5 
program.
    I now recognize myself for an opening statement.
    On March 24, the Department of Homeland Security Inspector 
General released a report detailing allegations against Deputy 
Secretary Mayorkas that relate to his time as director of USCIS 
and his oversight of the EB-5 program.
    The IG's office conducted more than 50 interviews, reviewed 
more than 40,000 phone records, and obtained more than 1 
million documents and emails. This investigation was 
unprecedented in that there were more than a dozen 
whistleblowers that came forward to the Inspector General's 
office.
    The findings were troubling, as the IG made some very 
serious charges against Mr. Mayorkas. Chief among them were 
that he used his position to influence outcomes in select cases 
for the benefit of politically connected and powerful 
individuals.
    In general, these allegations fall into four categories:
    Special access. Their allegations were unequivocal. Mr. 
Mayorkas gave special access and treatment to certain 
individuals and parties.
    Political favoritism. ``We received complaints from USCIS 
employees that the application for a politically connected 
regional center, Gulf Coast Funds Management, received 
extraordinary treatment as a result of Mr. Mayorkas' 
intervention.'' Additionally, USCIS staff understood that these 
applicants were prominent or politically connected.
    Created or went around established process and career staff 
decisions. Mr. Mayorkas was in contact outside of the normal 
adjudication process, either directly or through senior DHS 
leadership, with a number of stakeholders having business 
before USCIS. According to the employees, but for Mr. Mayorkas' 
actions, the staff would have decided these matters 
differently.
    Misplaced priorities. Mr. Mayorkas' focus on a few 
applicants and stakeholders was particularly troubling to 
employees given the massive scope of his responsibilities as 
director of USCIS.
    Two days after the release of the report, this committee 
held a hearing and heard testimony directly from DHS IG John 
Roth. From the report and again in his testimony before us, the 
IG found that Mr. Mayorkas appeared to play favorites with 
Democratic political operatives and insert himself improperly 
in ways that influenced the outcome of cases.
    These are very serious allegations and ones that, if true, 
should not be ignored. Although the IG did not allege that 
these acts were criminal in nature, they without a doubt raise 
questions about the deputy secretary's judgment.
    This was not the first time that the Inspector General's 
office reviewed allegations of impropriety at USCIS. In a 
separate report, the IG found that, in late 2009, the former 
USCIS chief counsel also placed pressure on career staff to 
reverse the outcome for a petition filed by a university that 
the chief counsel was connected to.
    Therefore, in April 2010 and in response to that, Mr. 
Mayorkas himself put out a policy memo to USCIS employees that 
stated, ``Each USCIS employee has the duty to act impartially 
in the performance of his or her official duties. Any 
occurrence of actual or perceived preferential treatment, 
treating similarly situated applicants differently, can call 
into question our ability to implement our Nation's immigration 
laws fairly, honestly, and properly.''
    In examining the IG's findings, it seems that Mr. Mayorkas 
has repeatedly violated his own policy through his actions 
regarding certain EB-5 cases as the director.
    As Chairman of this committee, as a former Federal 
prosecutor in the Public Integrity Section of the Department of 
Justice, I take the oversight responsibilities of this 
committee under the Constitution very seriously. After looking 
at the IG's report and hearing the IG's testimony last month, I 
felt obligated to examine the accusations made in this report 
in greater detail.
    Our committee staff has analyzed over 500 pages of 
documents from the IG and DHS. The committee expects to receive 
additional documentation from the Department in the coming 
days. But since our first hearing and after reviewing the 
report and associated documents, I have more questions.
    For instance, did Mr. Mayorkas knowingly or unknowingly 
violate USCIS policy to grant special access and treatment to 
applicants who are prominent and politically connected and 
overrule the USCIS career staff decisions in these cases?
    Second, does the lack of judgment shown by Mr. Mayorkas in 
the IG's report raise doubts about his ability to fulfill the 
responsibilities of deputy secretary? Specifically, DHS's 
morale is ranked the lowest of any large Federal agency. Mr. 
Mayorkas is charged with fixing this morale problem, yet the 
morale of certain USCIS staff deteriorated under his watch.
    Third, why has Mr. Mayorkas not been held accountable for 
his actions? According to the 2010 policy that Mr. Mayorkas 
signed, ``Failure to adhere to the standards or guidance set 
forth in this memorandum may subject the employee to 
disciplinary penalties, up to and including removal from 
employment.'' Political appointees at DHS should not be immune 
from accountability when warranted.
    We, as the people's representatives, deserve to hear the 
truth in these cases. However, there is no place for presumed 
guilt before innocence, and Mr. Mayorkas is allowed the 
opportunity here today to explain and defend his actions as 
alleged in the IG report. At the conclusion of our hearing on 
March 26, I stated that I looked forward to giving Mr. Mayorkas 
the opportunity to respond today.
    Today is that opportunity, sir.
    At the heart of this case really is the issue of trust and 
credibility. In order for Government to function, our leaders 
must have the trust of the American people and those who work 
for them. We can never forget that public office is a public 
trust.
    With that, I look forward to hearing from Mr. Mayorkas.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             April 30, 2015
    On March 24, the Department of Homeland Security Inspector General 
released a report detailing allegations against Deputy Secretary 
Mayorkas that related to his time as director of USCIS and his 
oversight of the EB-5 program.
    The IG's office conducted more than 50 interviews, reviewed more 
than 40,000 phone records, and obtained more than 1 million documents 
and emails. This investigation was unprecedented in that there were 
more than a dozen whistleblowers that came forward to the Inspector 
General's office. The findings are troubling as the IG made some very 
serious charges against Mr. Mayorkas.
    Chief among them was he used his position to influence outcomes in 
select cases for the benefit of politically-connected and powerful 
individuals.
    In general, these allegations fall into four categories:
    Special Access.--``Their allegations were unequivocal: Mr. Mayorkas 
        gave special access and treatment to certain individuals and 
        parties.''
    Political Favoritism.--``We received complaints from USCIS 
        employees that the application for a politically-connected 
        regional center, Gulf Coast Funds Management, received 
        extraordinary treatment as a result of Mr. Mayorkas's 
        intervention.'' Additionally, ``USCIS staff . . . understood 
        that these applicants were prominent or politically 
        connected.''
    Created or went around the established process and career staff 
        decisions.--``Mr. Mayorkas was in contact, outside of the 
        normal adjudication process, either directly or through senior 
        DHS leadership, with a number of stakeholders having business 
        before USCIS . . . According to the employees, but for 
        Mayorkas's actions, the staff would have decided these matters 
        differently.''
    Misplaced Priorities.--``Mr. Mayorkas's focus on a few applicants 
        and stakeholders was particularly troubling to employees given 
        the massive scope of his responsibilities as Director of 
        USCIS.''
    Two days after the release of the report, this committee held a 
hearing and heard testimony directly from DHS IG John Roth.
    From the report and again in his testimony before us, the IG found, 
Mr. Mayorkas appeared to play favorites with Democratic political 
operatives and inserted himself improperly in ways that influenced the 
outcome of cases.
    These are very serious allegations and ones that, if true, should 
not be ignored. Although the IG did not allege that these acts were 
criminal in nature, they without a doubt raise questions about the 
deputy secretary's judgement.
    This was not the first time that the Inspector General's office 
reviewed allegations of impropriety at USCIS. In a separate report, the 
IG found that in late 2009 the former USCIS chief counsel also placed 
pressure on career staff to reverse the outcome for a petition filed by 
a university that the chief counsel was connected to. In April of 2010, 
Mr. Mayorkas himself put out a policy memo to USCIS employees that 
stated:

``Each USCIS employee has the duty to act impartially in the 
performance of his or her official duties. Any occurrence of actual or 
perceived preferential treatment, treating similarly situated 
applicants differently, can call into question our ability to implement 
our Nation's immigration laws fairly, honestly, and properly.''

    In examining the IG's findings, it seems that Mr. Mayorkas 
repeatedly violated his own policy through his actions regarding 
certain EB-5 cases as USCIS director.
    As Chairman of the committee and a former Federal prosecutor in the 
Public Integrity Section of the Department of Justice, I take the 
oversight responsibilities of this committee very seriously.
    After looking at the IG's report and hearing the IG's testimony 
last month, I felt obligated to examine the accusations made in the 
report in greater detail. Committee staff has analyzed over 500 pages 
of documents from the IG and DHS. The committee expects to receive 
additional documentation from the Department in the coming days.
    Since our first hearing, and after reviewing the report and 
associated documents, I have more questions:
    1. Did Mr. Mayorkas knowingly or unknowingly violate USCIS policy 
        to grant special access and treatment to applicants who were 
        prominent and politically connected and overrule USCIS career 
        staff decisions in these cases?
    2. Does the lack of judgement shown by Mr. Mayorkas in the IG 
        report raise doubts about his ability to fulfill the 
        responsibilities of deputy secretary? Specifically, DHS's 
        morale is ranked the lowest of any large Federal agency. Mr. 
        Mayorkas is charged with fixing this morale problem yet the 
        morale of certain USCIS staff deteriorated under his watch.
    3. Why has Mr. Mayorkas not been held accountable for his actions? 
        According to the 2010 policy that Mr. Mayorkas signed, 
        ``failure to adhere to the standards or the guidance set forth 
        in this memorandum may subject the employee to disciplinary 
        penalties up to and including removal from employment.'' 
        Political appointees at DHS should not be immune from 
        accountability when warranted.
    We, as the people's representatives, deserve to hear the truth in 
these cases. However, there is no place for presumed guilt before 
innocence. Mr. Mayorkas is allowed the opportunity to explain and 
defend his actions as alleged in the IG Report. At the conclusion of 
our hearing on March 26, I stated that I looked forward to giving Mr. 
Mayorkas the opportunity to respond--today is that opportunity.
    At the heart of this case is the issue of trust and credibility. In 
order for Government to function our leaders must have the trust of the 
American people and those who work for them.
    We can never forget that public office is a public trust. With 
that, I look forward to hearing from Mr. Mayorkas.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman McCaul. With that, I recognize the Ranking Member 
of the committee, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    I would like to thank Deputy Secretary Mayorkas for 
appearing today.
    Last month, the Department of Homeland Security's Office of 
Inspector General released the results of an investigation into 
the employee complaints about the management of the investor 
visa program. This program, better known as the EB-5 program, 
accounts for less than 1 percent of all visas issued by the 
United States Citizenship and Immigration Services. However, 
given the program's potential as a job-creator, it has great 
visibility to Congressional leaders from across the political 
spectrum.
    I do not take issue with the Inspector General's decision 
to limit his review to questions regarding Deputy Secretary 
Mayorkas' involvement in the three EB-5 applications at issue. 
However, I am disappointed that, after expending months of 
resources to investigate these cases, the Inspector General 
produced an incomplete report. It only addressed the 
allegations made by USCIS personnel about contact with 
prominent Democratic figures, thereby giving the false 
impression that there were no Republican inquiries or outreach 
on these three cases.
    At the time that Inspector General Roth testified, I was 
skeptical that Deputy Secretary Mayorkas only heard from 
Democrats on these cases, given the potential economic benefit 
of the EB-5 program. When I asked the Inspector General about 
other outreach on these three cases, the Inspector General was 
nonresponsive.
    Subsequently, through further engagement with the 
Department, I have learned that prominent Republicans contacted 
Deputy Secretary Mayorkas and asked him to give his personal 
attention to these three cases. Given that this review has 
implications for Deputy Secretary Mayorkas' reputation, it was 
incumbent on the Inspector General to present a complete 
picture of Mr. Mayorkas' contacts and involvement in these 
cases.
    More broadly, I have learned that, while serving as USCIS 
Director, Deputy Secretary Mayorkas was regularly contacted on 
EB-5 cases and other visa matters, but not only by Democrats, 
but also Republicans, including Members of this committee.
    Not only am I disappointed about the incompleteness of the 
Inspector General's review, I find it appalling that the 
Inspector General would not provide testimony to lay to rest 
questions of actual wrong-doing or impropriety, despite the 
fact that the report did not find the deputy secretary's 
involvement was inappropriate.
    As I stated last month, the picture that emerged from the 
Inspector General's report was that of an activist manager that 
demanded reform and responsiveness from his agency. If we want 
to have a comprehensive examination of Deputy Secretary 
Mayorkas' leadership style, we should look at his actions as a 
whole, including in his current capacity as deputy secretary.
    Under Deputy Secretary Mayorkas' leadership, the Department 
has made great strides in some areas and remains stagnant in 
others. There have been progress on key areas identified on the 
Government Accountability Office's high-risk list, and, as a 
result of these efforts, GAO recently acknowledged improvement, 
stating that DHS has demonstrated exemplary commitment and 
support for addressing the Department's management challenges.
    The deputy secretary is also working closely with the 
Secret Service Director on reform efforts. There is quite a bit 
of work to be done to improve the agency's performance and 
address long-standing cultural issues. Equitable treatment of 
Secret Service personnel is still an issue.
    There is also the matter of a racial discrimination class 
action lawsuit that has dragged on for 15 years. Also, we have 
not seen many of the recommendations issued by the Department's 
independent panel implemented, including bringing someone from 
outside the agency into its leadership.
    These outstanding issues undermine morale and performance 
within this vital agency and certainly demand timely and 
thoughtful attention.
    More broadly, DHS has well-documented morale challenges of 
its own. According to the 2014 Best Places to Work in the 
Federal Government, the Department comes in last, with dismal 
scores in the areas of support for diversity, fairness, and 
effective leadership.
    The Department has spent millions of dollars on studying 
the workforce, but a plan that yields results has yet to be 
implemented. I would like to hear from the Deputy Secretary 
Mayorkas on how, through his leadership, substantial 
improvements can be achieved at the Department.
    Mr. Chairman, while I understand that much of today's 
discussion is looking backwards, I hope that we will seize this 
opportunity and also look ahead. Deputy Secretary Mayorkas is 
the highest-ranking DHS official to appear before this 
committee this Congress. We should seize this opportunity to 
have a meaningful discussion about DHS and how it is addressing 
its operational, administrative, and mission challenges.
    This committee works well when we can work in a bipartisan 
manner to achieve the shared goals of advancing the Department 
of Homeland Security.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 30, 2015
    Last month, the Department of Homeland Security's Office of 
Inspector General released the results of an investigation into 
employee complaints about the management of the investor visa program. 
This program, better known as the EB-5 program, accounts for less than 
1 percent of all visas issued by the United States Citizenship and 
Immigration Services; however, given the program's potential as a ``job 
creator,'' it has great visibility to Congressional leaders from across 
the political spectrum.
    I do not take issue with the Inspector General's decision to limit 
his review to questions regarding Deputy Secretary Mayorkas' 
involvement in the three EB-5 applications at issue. However, I am 
disappointed that, after expending months of resources to investigate 
these cases, the Inspector General produced an incomplete review. It 
only addressed the allegations made by USCIS personnel about contact 
with prominent Democratic figures, thereby giving the false impression 
that there were no Republican inquiries or outreach on these three 
cases.
    At the time that Inspector General Roth testified, I was skeptical 
that Deputy Secretary Mayorkas only heard from Democrats on these 
cases, given the potential economic benefits of the EB-5 program. When 
I asked the Inspector General about other outreach on these three 
cases, the Inspector General was non-responsive. Subsequently, through 
further engagement with the Department, I learned that prominent 
Republicans contacted Deputy Secretary Mayorkas and asked him to give 
his personal attention to these three cases.
    Given that this review has implications for Deputy Secretary 
Mayorkas' reputation, it was incumbent on the Inspector General to 
present a complete picture of Mr. Mayorkas' contacts and involvement in 
these cases. More broadly, I have learned that while serving as USCIS 
director, Deputy Secretary Mayorkas was regularly contacted on EB-5 
cases and other visa matters by not only Democrats, but also, 
Republicans, including Members of this committee.
    Not only am I disappointed about the incompleteness of the 
Inspector General's review, I find it appalling that the Inspector 
General would not provide testimony to lay to rest questions of actual 
wrong-doing or impropriety, despite the fact that the report did not 
find that the deputy secretary's involvement was inappropriate.
    As I stated last month, the picture that emerged from the Inspector 
General's report was that of an ``activist manager'' that demanded 
reform and responsiveness from his agency. If we want to have a 
comprehensive examination of Deputy Secretary Mayorkas' leadership 
style, we should look at his actions as a whole, including in his 
current capacity, as deputy secretary. Under Deputy Secretary Mayorkas' 
leadership, the Department has made great strides in some areas and 
remains stagnant in others. There has been progress on key areas 
identified on the Government Accountability Office's ``High-Risk'' list 
and, as a result of these efforts, GAO recently acknowledged 
improvement, stating that DHS has demonstrated ``exemplary commitment 
and support for addressing the Department's management challenges.''
    The deputy secretary is also working closely with the Secret 
Service director on reform efforts. There is quite a bit of work to be 
done to improve the agency's performance and address long-standing 
cultural issues. Equitable treatment of Secret Service personnel is 
still an issue. There is also the matter of a racial discrimination 
class action lawsuit that has dragged on for 15 years.
    Also, we have not seen many of the recommendations issued by 
Department's independent panel implemented, including bringing someone 
from outside the agency into its leadership. These outstanding issues 
undermine morale and performance within this vital agency and certainly 
demand timely and thoughtful attention. More broadly, DHS has well-
documented morale challenges of its own.
    According to the 2014 Best Places to Work in the Federal 
Government, the Department comes in last with dismal scores in the 
areas of support for diversity, fairness, and effective leadership. The 
Department has spent millions of dollars on studying the workforce, but 
a plan that yields results has yet to be implemented.
    I would like to hear from Deputy Secretary Mayorkas on how, through 
his leadership, substantial improvements can be achieved at the 
Department. Mr. Chairman, while I understand that much of today's 
discussion is looking backwards, I hope that you will seize this 
opportunity to also look ahead. Deputy Secretary Mayorkas is the 
highest-ranking DHS official to appear before the Committee this 
Congress. We should seize this opportunity to have a meaningful 
discussion about DHS and how it is addressing its operational, 
administrative, and mission challenges. This committee works well when 
we can work in a bipartisan manner to achieve the shared goal of 
advancing the Department of Homeland Security.

    Chairman McCaul. I thank the Ranking Member.
    Let me make it clear: I did not create or generate the 
Inspector General's report, but it has been completed. I have a 
role under the Constitution to provide oversight responsibility 
in this matter, and that is what we are doing here today.
    We have heard, Mr. Mayorkas, from the Inspector General, 
and now today is your opportunity for us to hear your side of 
the story. With that, I want to thank you for being here.
    Given the nature of this case today, I would like to swear 
in the witness.
    If you would please now stand and raise your right hand.
    [Witness sworn.]
    Chairman McCaul. Let the record reflect that the witness 
has taken the oath.
    Mrs. Watson Coleman. Mr. Chairman.
    Chairman McCaul. Mrs. Watson Coleman is recognized.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    I just want it stated for the record that I really don't 
understand the necessity of swearing in the deputy secretary, 
when we had the Inspector General, who generated this--the 
reason for our being here in the first place, and we never once 
asked him to be sworn in.
    I just find that it is unusual and unnecessary, given this 
high appointed official who has such tremendous credentials on 
his behalf. I just want it stated for the record.
    Thank you.
    Chairman McCaul. I appreciate the gentlelady's point of 
order, I suppose.
    Let me say, the committee and House rules provide for the 
swearing of any witness that the Chairman deem appropriate. I 
think, given the serious allegations generated by the Inspector 
General's report, that warrants the swearing in of this witness 
in particular. I, again, am giving the witness an opportunity 
to explain----
    Mrs. Watson Coleman. Yeah.
    Chairman McCaul [continuing]. His side of the story.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    But may I just say that the reason that we are here is we 
are relying so heavily--or you are relying so heavily on the 
limited and very myopic findings of the Inspector General. His 
report has caused tremendous consternation here and, I am sure, 
in the Department. Yet we didn't feel the need--or you didn't 
feel the need to swear him in.
    I just wanted to state that for the record, that I think 
that this is an unusual situation.
    Thank you for your----
    Chairman McCaul. Well, the gentlelady's point is well-
taken, but the fact of the matter is that this is the witness 
today that is responding to these serious accusations. I think 
they are very serious. I think when we talk about potential 
breach of ethics and integrity policy that could have an impact 
on our Nation's security, as it impacts the entry of foreign 
nationals into the United States, madam, that this morning's 
swearing in is perfectly appropriate.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Chairman McCaul. I want to say that it is important this 
committee exercise its oversight responsibilities and let the 
witness know how serious these accusations are by the Inspector 
General.
    Therefore, I think it is entirely appropriate--not only is 
it appropriate, it is deemed under the House of 
Representatives' rules in this Congress and this committee's 
rules to have a swearing-in process, unless the gentlelady 
would prefer that this committee not exercise its oversight 
responsibilities under the rules of the United States House of 
Representatives and this committee.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. I appreciate 
your consideration of my concerns. I most assuredly want us to 
exercise our responsibilities under the Constitution and under 
the organization of this committee, to exercise our oversight 
rights.
    I do believe, however, I look for fairness and justice and 
equality as we undertake those important decisions and issues.
    But I thank you for your consideration. You are always----
    Chairman McCaul. As I have stated----
    Mrs. Watson Coleman [continuing]. Very generous with me. 
Thank you.
    Chairman McCaul. If the gentlewoman would yield. I have 
stated the purpose of this hearing is to hear Mr. Mayorkas' 
side of the story.
    I think, given the serious allegations and nature of 
misconduct, at the highest levels of the Department, involving 
foreign nationals, that the swearing in of this witness is 
entirely appropriate, and it is the responsibility of this 
committee to do so.
    As we go forward with our investigations on this committee 
into foreign fighters and the home-grown violent extremists, 
those investigations may require the swearing in of witnesses, 
as well.
    Most other committees, madam, actually swear in their 
witnesses. I don't see any reason why this committee, the 
Homeland Security Committee, should abdicate its responsibility 
and not swear in witnesses, to basically just give an oath to 
say, ``Tell the truth.''
    Mrs. Watson Coleman. It is inappropriate for me to engage 
in this discussion with you in this manner, so I shall yield 
any further discussion.
    Chairman McCaul. Unless the----
    Mrs. Watson Coleman. I just am interested in----
    Chairman McCaul. Unless the madam would prefer that this 
committee not to swear in witnesses.
    Mrs. Watson Coleman. I am just interested in consistency. 
That is it. Thank you.
    Chairman McCaul. I think telling the truth is the No. 1 
goal that this committee should have for witnesses that appear 
before this committee.
    Mr. Thompson. Mr. Chairman, I don't think there is any 
reason for you to be concerned about Ms. Watson Coleman's 
drawing the distinction between an assertion that the Inspector 
General made from an incomplete report--and now we bring the 
No. 2 person in the Department, we swear him in, and that 
obviously is a rule, but she was just saying that, in her view, 
it was inconsistent. It has nothing to do with terrorists or 
foreign fighters. She only spoke to the procedure of swearing 
in the witness.
    Obviously, we can do a lot of other things, but I think she 
is within her right, as a Member of this committee, to voice 
her concern and her observation. It is not taking issue that 
you, as Chairman, can't do it, but she is just saying that it 
is inconsistent. I think Ms. Watson Coleman, as a Member of the 
committee, is within her right to do so.
    Chairman McCaul. You know, I--most likely, we will have the 
Inspector General back. You know, I think this committee 
actually should exercise its right under the rules to have 
witnesses being sworn in before-hand. This committee has not 
done that, and I think it should. I think that is a 
responsibility.
    Mr. Perry. Mr. Chairman.
    Chairman McCaul. I yield to Mr. Perry.
    Mr. Perry. Just a point of clarification for me and maybe 
anybody else. Is it common practice in hearings, in courts, to 
swear in the prosecutor or swear in the judge? The Inspector 
General is not the person under scrutiny here; the Inspector 
General is the one that offered the report. We are trying to 
get to the facts.
    It seems to me it would be inappropriate to swear in the 
Inspector General in this case and juxtapose that with this 
witness. As a layman, it just doesn't seem like that has been 
the normal course of events in any other similar circumstances, 
notwithstanding.
    So I just want to make that point from my view.
    Chairman McCaul. I think the gentlemen raises a very good 
point, and it is--the allegations are there in the Inspector 
General's report. The witness is here to respond to those 
allegations. All I am trying to do, by ensuring the swearing in 
of the witnesses, is that he is telling the truth in response 
to the allegations made against him.
    Mr. Thompson. I don't think it is in the witness' best 
interest not to tell the truth. I think that the point that is 
being made is--I don't have any doubt that our witness, if 
asked a question, will answer it. I think you elevate this 
situation by swearing in.
    Sure, the rules provide for it, but we had, at the 
Inspector General's own admission, a report that was 
incomplete. That report, it makes serious allegations, but it 
was an incomplete report. You bring someone before the 
committee to respond to an incomplete report.
    Chairman McCaul. This is an extraordinary case. We do not 
swear in witnesses. If the Ranking Member wants to do that in 
every hearing, I would be happy to do so.
    This presents a very extraordinary case of the No. 2 man in 
the Department of Homeland Security under allegations that are 
very, very serious. We haven't had a case like this in quite 
some time before this committee in our oversight 
responsibilities. Therefore, I thought it was appropriate in 
this case to have him sworn in, because of the allegations 
being so serious.
    We can attack the IG's report or deal with it as it is. The 
fact of the matter is the IG's report has raised serious 
accusations about Mr. Mayorkas' ethical policy and his 
potential violations thereof. Therefore, because of the 
extraordinary nature of this hearing and the issues at hand, as 
I stated at the beginning, I believe that swearing the witness 
in was entirely appropriate in this case.
    I don't think the American people would think it was not. I 
think the American people expect this from our Government 
officials at the highest levels, to be sworn in to tell the 
truth, the whole truth, and nothing but the truth. I actually 
believe Mr. Mayorkas himself agrees with that assertion, and I 
believe that he will tell the truth at this hearing today.
    Mr. Thompson. Well, let me just, for the record, indicate 
that, under title 18, it is illegal to lie or make 
misrepresentation to Congress, whether you are sworn in or not.
    So Mr. Mayorkas is a witness, and, as I said, I have not 
known witnesses to come before this committee and do anything 
but tell the truth in their opinion. So he has operated for a 
long time in a professional capacity, and I am convinced that 
he understands it.
    But I look forward to his sworn testimony.
    Chairman McCaul. The gentlemen is correct that, under the 
Federal law, it is a crime to lie to Congress. No one knows 
that better than a public integrity prosecutor in Washington, 
myself.
    But the formality of this practice, as done by most other 
committees--and this one has an investigative role--I think we 
have not done it enough. The formality of this practice reminds 
all of us, both committee Members and our distinguished 
witnesses, of the importance of the testimony that is being 
offered here today.
    Without further discussion, the Chairman now recognizes 
Deputy Secretary Mayorkas to testify.

    STATEMENT OF ALEJANDRO MAYORKAS, DEPUTY SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Mayorkas. Thank you.
    Chairman McCaul, Ranking Member Thompson, distinguished 
Members of the Homeland Security Committee, thank you for 
providing me with the opportunity to address you today and to 
answer questions you might have. I have looked forward to this 
opportunity.
    The work of U.S. Citizenship and Immigration Services, or 
USCIS, is casework. The agency's primary responsibility is to 
decide immigration cases according to the law in a way that 
safeguards our Nation's security and the integrity of our 
immigration system. The agency decides millions of cases each 
year.
    We are fortunate to have a great workforce at USCIS--
dedicated and hard-working public servants. After I became the 
director and led a top-to-bottom review of the agency, I 
learned that the agency did not always provide its workforce 
with the support and resources it needed to meet its 
obligations to the American public.
    Among the most significant challenges were gaps and 
inconsistencies in the critical legal and policy guidance that 
governed adjudicators in their review of cases. The 
consequences were serious. The agency was too often misapplying 
the law and issuing unsound policies.
    The USCIS is an adjudicative body, and I learned of these 
legal and policy challenges when individual cases were brought 
to my attention. The cases--cases involving the rich and the 
poor alike, business and cultural interests, as well as 
profound humanitarian concerns--came to me from a variety of 
sources, including agency employees who brought cases to me for 
resolution, media reports, Members of Congress, other 
Government officials, and members of the public.
    The extent of my involvement depended on the nature and 
complexity of the issues presented and what was necessary to 
resolve them. I became involved in many cases of all types 
throughout my tenure because it was ultimately my 
responsibility, as the Director, to ensure cases were decided 
correctly under the law. Congress is only too familiar with the 
severe consequences to an applicant when a case is wrongly 
decided.
    The legal and policy challenges we face were greatest in 
the EB-5 program, the most complex program USCIS administers. 
EB-5 cases require complicated business and economic analysis, 
such as whether the required amount of investment capital is at 
risk and whether the econometric models used to predict future 
job creation are reasonable. Unlike traditional immigration 
adjudications that involve an application that is several pages 
in length, EB-5 cases require different stages of agency review 
and often involve thousands of pages of legal and business 
documents.
    The EB-5 program was underdeveloped when I arrived at USCIS 
in August 2009. At that time, the program only had 
approximately nine adjudicators. The agency did not provide 
them with the needed economic, business, or corporate law 
expertise to support them. Applicants did not have to file a 
form, as required in other visa categories, but instead would 
submit an informal letter.
    The agency's National security and anti-fraud screening 
needed to be strengthened. There was no comprehensive EB-5 
policy document but, rather, a series of memos issued over the 
years that I learned through my review of EB-5 cases had failed 
to address many critical issues that apply to our everyday 
work. As a result, we were administering the EB-5 program 
poorly, and that was the view from every quarter.
    At the very same time, the public's interest in and use of 
the program was growing dramatically. In the challenging 
economy at that time, when it was difficult to obtain 
commercial loans domestically, more business developers were 
turning to the EB-5 program for foreign financing. Because EB-5 
developments can lead to the significant infusion of money and 
new jobs into a community, the public was interested in the 
outcome of these cases.
    The growing importance of the program in communities 
suffering high employment, combined with USCIS's poor 
administration of the program, led to rising complaints, which 
I took seriously.
    Congress appealed to me repeatedly to fix our 
administration of the program and to fix errors in specific 
cases. Members of Congress from both sides directed to USCIS 
more than 1,500 EB-5 case inquiries per year, dwarfing the 
number of communications about any other program the USCIS 
administered.
    As the individual ultimately responsible for USCIS's 
administration of the program, I became increasingly involved 
in resolving the EB-5 legal and policy issues that we as an 
agency confronted. The issues often came to me through cases, 
the very work for which the agency is responsible.
    I became involved in many EB-5 cases, three of which became 
the focus of the Office of Inspector General. I became involved 
in the very same way that I became involved in other cases--at 
the behest of my own employees, Members of Congress, Government 
officials, and other stakeholders.
    As to the three cases, the Office of Inspector General 
found that, through my involvement, I allowed some agency 
colleagues to develop the perception that I was favoring 
individuals with an interest in these cases. I thought I had 
taken steps to guard against this very possibility. Even an 
appearance of impropriety is not acceptable to me.
    Yet, as I have reflected on this important matter, I 
understand that these colleagues would not necessarily have 
known what I did do to adhere to applicable guidelines in these 
three cases, nor would they necessarily have been aware of my 
involvement in many other cases, many of which were responsive 
to concerns and inquiries of Members of Congress from both 
parties. This context would better have guarded against the 
possibility of such perception.
    I support and embrace Secretary Johnson's protocols 
developed to more ably ensure that employees understand the 
involvement of their supervisors in specific cases. The 
protocols will benefit future agency directors who become 
involved and provide guidance in certain cases. I regret the 
perception my own involvement created.
    In the three cases at issue, cases that were the subject of 
bipartisan support, I did what I did in the many other cases 
that were brought to my attention: I did my job and fulfilled 
my responsibility. I did not let errors go unchecked but, 
instead, helped ensure that those cases were decided 
correctly--nothing more and nothing less.
    I sought the advice of colleagues, including agency 
counsel; took steps I thought would guard against the chance of 
misperception; raised concerns of fraud or National security; 
and followed the facts and applied the law. I became involved 
in more cases, EB-5 and other types, than I can count.
    All applicants are entitled to and deserve the fair and 
correct application of the law. In the cases in which I became 
involved, whether it was the case of the Guatemalan orphan 
seeking to be united with her adoptive American family, the 
pregnant mother seeking urgent humanitarian parole to escape a 
forced abortion in China, the performing arts group lending 
cultural influences and seeking a performing arts visa, or the 
EB-5 petitioner forming a business enterprise, this basic 
principle was my guide and my responsibility to fulfill.
    Thank you for the opportunity to appear before you.
    [The prepared statement of Mr. Mayorkas follows:]
                Prepared Statement of Alejandro Mayorkas
                             April 30, 2015
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the Homeland Security Committee, I look forward to the opportunity to 
address you and to answer questions you might have.
    The work of U.S. Citizenship and Immigration Services, or USCIS, is 
casework. The agency's primary responsibility is to decide immigration 
cases according to the law, in a way that safeguards our Nation's 
security and the integrity of our immigration system. The agency 
decides millions of cases each year.
    We are fortunate to have a great work force at USCIS, dedicated and 
hard-working public servants. After I became the director and led a 
top-to-bottom review of the agency, I learned that the agency did not 
always provide its work force with the support and resources it needed 
to meet its obligations to the American public. Among the most 
significant challenges were gaps and inconsistencies in the critical 
legal and policy guidance that governed adjudicators in their review of 
cases.
    The consequences were serious; the agency was too often misapplying 
the law and issuing unsound policies. USCIS is an adjudicative body and 
I learned of these legal and policy challenges when individual cases 
were brought to my attention. The cases--cases involving the rich and 
the poor alike, business and cultural interests as well as profound 
humanitarian concerns--came to me from a variety of sources, including 
agency employees who brought cases to me for resolution, media reports, 
Members of Congress, other Government officials, and members of the 
public. The extent of my involvement depended on the nature and 
complexity of the issues presented and what was necessary to resolve 
them. I became involved in many cases, of all types, throughout my 
tenure because it was ultimately my responsibility as the director to 
ensure cases were decided correctly under the law. Congress is only too 
familiar with the severe consequences to an applicant when a case is 
wrongly decided.
    The legal and policy challenges we faced were greatest in the EB-5 
program, the most complex program USCIS administers. EB-5 cases require 
complicated business and economic analysis, such as whether the 
required amount of investment capital is at risk and whether the 
econometric models used to predict future job creation are reasonable. 
Unlike traditional immigration adjudications that involve an 
application that is several pages in length, EB-5 cases require 
different stages of agency review and often involve thousands of pages 
of legal and business documents.
    The EB-5 program was under-developed when I arrived at USCIS in 
August 2009. At that time, the program only had approximately nine 
adjudicators. The agency did not provide them with the needed economic, 
business, or corporate law expertise to support them. Applicants did 
not have to file a form as required in other visa categories but 
instead would submit an informal letter. The agency's National security 
and anti-fraud screening needed to be strengthened. There was no 
comprehensive EB-5 policy document, but rather a series of memos issued 
over the years that I learned, through my review of EB-5 cases, had 
failed to address many critical issues that applied to our everyday 
work. As a result, we were administering the EB-5 program poorly and 
that was the view from every quarter.
    At the very same time, the public's interest in and use of the 
program was growing dramatically. In the challenging economy at that 
time, when it was difficult to obtain commercial loans domestically, 
more business developers were turning to the EB-5 program for foreign 
financing. Because EB-5 developments can lead to the significant 
infusion of money and new jobs into a community, the public was 
interested in the outcome of these cases. The growing importance of the 
program in communities suffering high unemployment, combined with 
USCIS's poor administration of the program, led to rising complaints, 
which I took seriously. Congress appealed to me repeatedly to fix our 
administration of the program and to fix errors in specific cases. 
Members of Congress from both parties directed to USCIS more than 1,500 
EB-5 case inquiries per year, dwarfing the number of communications 
about any other program USCIS administered.
    As the individual ultimately responsible for USCIS's administration 
of the program, I became increasingly involved in resolving the EB-5 
legal and policy issues that we as an agency confronted. The issues 
often came to me through cases, the very work for which the agency is 
responsible. I became involved in many EB-5 cases--three of which 
became the focus of the Office of Inspector General--and I became 
involved in the very same way that I became involved in other cases; at 
the behest of my own employees, Members of Congress, Government 
officials, and other stakeholders.
    As to the three cases, the Office of Inspector General found that 
through my involvement I allowed some agency colleagues to develop the 
perception that I was favoring individuals with an interest in the 
cases. I thought I had taken steps to guard against this very 
possibility; even an appearance of impropriety is not acceptable to me. 
Yet, as I have reflected on this important matter, I understand that 
these colleagues would not necessarily have known what I did do to 
adhere to applicable guidelines in these three cases, nor would they 
necessarily have been aware of my involvement in many other cases, many 
which were responsive to concerns and inquiries of Members of Congress 
from both parties. This context would better have guarded against the 
possibility of such perception. I support and embrace Secretary 
Johnson's protocols developed to more ably ensure that employees 
understand the involvement of their supervisors in specific cases. The 
protocols will benefit future agency directors who become involved and 
provide guidance in certain cases. I regret the perception my own 
involvement created.
    In the three cases at issue--cases that were the subject of 
bipartisan support--I did what I did in the many other cases that were 
brought to my attention; I did my job and fulfilled my responsibility. 
I did not let errors go unchecked, but instead helped ensure that those 
cases were decided correctly, nothing more and nothing less. I sought 
the advice of colleagues, including agency counsel, took steps I 
thought would guard against the chance of misperception, raised 
concerns of fraud or National security, and followed the facts and 
applied the law.
    I became involved in more cases--EB-5 and other types--than I can 
count. All applicants are entitled to and deserve the fair and correct 
application of the law. In the cases in which I became involved--
whether it was the case of the Guatemalan orphan seeking to be united 
with her adoptive American family, the pregnant mother seeking urgent 
humanitarian parole to escape a forced abortion in China, the 
performing arts group blending cultural influences and seeking a 
performing arts visa, or the EB-5 petitioner forming a business 
enterprise--this basic principle was my guide and my responsibility to 
fulfill.
    Thank you for the opportunity to appear before you.

    Chairman McCaul. I thank the Deputy Secretary.
    I now recognize myself for 5 minutes.
    Let me just say first, again, I did not create this report, 
had nothing to do with it. It raises serious allegations. You, 
I know, sir, of all people, know that I have an oversight 
responsibility under the Constitution.
    I want to go through some of the issues that have been 
raised by the report to give you the opportunity to respond to 
that.
    First, I know in April 2010 you issued an ethics policy to 
all of your employees.
    I would like the clerk to provide the policy memorandum to 
the witness.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman McCaul. I just want to ask you first: Why did you 
issue this ethics policy, and what was the purpose behind it?
    Mr. Mayorkas. Mr. Chairman, I issued this ethics policy 
because the principles articulated in this policy are very 
important and are applicable to everyone in the agency.
    You correctly noted that public confidence in the decision 
making of a Government agency is critical to the public 
interest and to our responsibility as Government officials. In 
the service of that principle, I issued this important ethics 
memorandum.
    Chairman McCaul. I think it is a good memorandum. I know 
you, coming from the Justice Department, like myself--you say 
the purpose is to prevent situations that could be or appear to 
be preferential treatment.
    What are the penalties outlined in this policy if an 
employee fails to meet the standards set forth?
    Mr. Mayorkas. Mr. Chairman, the penalties depend upon the 
facts of a particular case. The memorandum does spell out that 
the penalties can cover a wide range of possibilities, anywhere 
from a counseling to a termination, depending upon what 
principle is specifically violated and the facts of that 
violation.
    Chairman McCaul. So it is a disciplinary--penalties up to 
and including removal from employment is what is stated in the 
memo.
    More than 15 civil servants, career employees, came forward 
in your matter regarding your actions in the three EB-5 cases. 
According to the IG, ``Their allegations were unequivocal,'' 
giving special access and treatment to certain individuals and 
parties. I would like to ask you about these three cases 
specifically.
    First, in the L.A. Films case, according to the IG's 
report, within an hour of speaking to Ed Rendell, former 
Governor and chair of the Democratic National Committee, you 
directed USCIS staff to stop processing the denials of EB-5 
visa petitions that you had already signed off on.
    Is that true?
    Mr. Mayorkas. Mr. Chairman, I don't remember the chronology 
of communications in that particular case.
    I think there's a very important principle at stake, 
though, and that is the following: That if a concern with 
respect to our adherence of the law is raised, it is our 
obligation to address that concern and have confidence that the 
ultimate decision that we are making in a case adheres to the 
law and the facts in every case.
    Chairman McCaul. I appreciate----
    Mr. Mayorkas [continuing]. That is what I did in that case.
    Chairman McCaul. On page 18, that is exactly what the IG's 
report says. They stopped processing the denials that you had 
already signed off on.
    I mean, I guess you can't answer that question? I am just 
going from the IG's report.
    Mr. Mayorkas. Mr. Chairman, I am not questioning the facts 
that the Inspector General lays out at that particular point in 
the report. What I am sharing with you is that I don't recall 
the chronology of communications in that case.
    But the principle is vitally important, that when we issue 
an adjudication in a case, it is our obligation to adjudicate 
the case in adherence of the law based on the facts in that 
particular case.
    Chairman McCaul. I respect that.
    According to the report, you also directed the staff to 
create one-time review board that resulted in approval of 249 
petitions that, in the opinion of the career staff, would have 
otherwise been denied.
    Do you know if that is true?
    Mr. Mayorkas. That is not precisely true, if I may. If I 
can please share----
    Chairman McCaul. Very succinctly. I have very limited time.
    Mr. Mayorkas. Yes, Mr. Chairman.
    In 2011, amidst many complaints with respect to our poor 
administration of the EB-5 case, we developed a series of 
reforms, proposals that we would flush out subsequently. One of 
those reforms that we discussed in the agency and announced 
publically and to which the public responded was the creation 
of a decision board in EB-5 cases to address complex issues 
that were unresolved between the agency and the parties----
    Chairman McCaul. I appreciate it, but, if I could say, the 
board was only used once, in this specific case. It creates the 
appearance that you may have created a special process to 
accommodate special parties, which, I argue, were in violation 
of your own policy.
    If I could go to the Las Vegas hotel case, according to the 
IG's report, not me, you directed your employees to provide 
Senator Reid's staff with weekly briefings. Is this correct?
    Mr. Mayorkas. I don't recall doing so.
    Chairman McCaul. That is on page 36 of the IG report.
    Is it standard practice to provide weekly updates to the 
status of EB-5 visa applications to outside parties?
    Mr. Mayorkas. Mr. Chairman, we prided ourselves on our 
responsiveness to Congress. How frequently our Office of 
Legislative Affairs responded to the enumerable questions and 
inquiries and concerns from Members of Congress I could not 
speak to. I know that the dialogue between our agency and 
Members of Congress from both parties was constant and 
consistent throughout our administration of the EB-5 program, 
and for reasons that were quite understandable, quite frankly.
    Chairman McCaul. Well, I mean, in all three of these, you 
have been unable to confirm or deny the specific allegations 
set forth in the IG's report. I believe that it seems clear 
that your actions to address Senator Reid's request to expedite 
this case, provide his staff with weekly updates, if true--and 
I understand the IG is making the accusation and you are 
denying it, or you are saying you don't remember--that would, 
in my judgment, create a perception of preferential treatment 
in violation of your own policy, your ethical policy that you 
set forth, sir.
    Let me move to the last one, because my time is limited, 
the Gulf Coast case. According to the IG's report, not my 
words, following communications with current Virginia Governor 
and former chair of the Democratic National Committee Terry 
McAuliffe, you subsequently intervened in the decision on the 
Gulf Coast appeal, even saying to career staff that you would 
rewrite the decision yourself.
    That is set forth in the IG's report. Can you respond to 
that? This is your day to respond to these accusations, sir.
    Mr. Mayorkas. Thank you very much, Mr. Chairman, for that 
opportunity.
    I was asked by the then-Secretary's office to look into 
this EB-5 case because it was the subject of considerable 
concern not only by stakeholders outside of the Government but 
by Members of Congress of both parties as well. It was at that 
direction that I looked into the case and learned that there 
were serious legal issues at play in that case, legal issues 
the seriousness of which my own colleagues recognized.
    Chairman McCaul. You know, I was a prosecutor in the 
campaign finance reform where the Chinese Government influenced 
an election, and I have to tell you, I am going to pursue this 
investigation into the EB-5 applicants and what was behind with 
respect to some of these foreign nationals. There may be 
nothing there, but I think it warrants a further look.
    In conclusion, I would just like to say your 2010 ethics 
policy--again, you state in your policy, ``Often, the 
appearance of preferential treatment can be as damaging to our 
agency's reputation as actual preferential treatment. 
Therefore, an employee should avoid matters, cases, or 
applications if his or her participation may cause a reasonable 
person to question the employee's impartiality.''
    Sir, I believe, in my judgment, reviewing this matter and 
the responses you have given today, not really being able to 
respond specifically, that your actions in these cases create, 
at least at a minimum, the perception of special access and 
political favoritism.
    In my judgment, I think you also violated your own ethics 
policy. You know, at the end of the day, you know, you and I 
are both career employees. Now you are a political appointee, 
but political appointees should be held to the same ethical 
standards, I believe, as rank-and-file members at the 
Department.
    With that, the Chairman now recognizes the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Deputy Secretary Mayorkas, the Inspector General was before 
us several weeks ago. I asked some questions about the normal 
process by which he reviewed this EB-5 program.
    All of us are Members of Congress. Our constituents ask us 
all the time to contact this agency on our behalf, do what you 
can. For the most part, we do. It is not unusual for a Member 
of Congress to contact a Federal agency about a constituent's 
interest in a program.
    Now, EB-5 is a job-creator. That was one of the reasons it 
was put together. But I am going specifically to the three EB-5 
cases mentioned in the Inspector General's report.
    The Gulf Coast case, the Inspector General talked about 
contacts from Democrats. Are you aware of any contact from 
Republicans in this same case?
    Mr. Mayorkas. Yes, Congressman, I am. That EB-5 case was 
the subject of bipartisan support, and we received 
communications from Members of Congress of both parties.
    I think, if I may articulate a very important principle 
here, that the individual who brings an issue to our attention 
does not decide the disposition of that issue. The disposition 
of the issue is neutral to the messenger but loyal, 
scrupulously loyal, to the law and the facts in the case.
    Mr. Thompson. Thank you.
    Now, you know, this is only not to impune any of the 
individuals, but my former Governor, Haley Barbour, is known. 
He headed the Republican National Committee, a very active 
person in the community, and somebody who is interested in 
jobs.
    I am told that he contacted your office on behalf of Gulf 
Coast. Is that correct?
    Mr. Mayorkas. Yes, Congressman.
    Mr. Thompson. Well, and I just want people to understand 
that the perception is that here you have a Republican Governor 
contacting a Democratic administration on behalf of a job 
creator, but an IG report gives you the impression that only 
Democrats contacted the agency.
    Now, I understand that both my Senators, Wicker and 
Cochran, contacted your office on behalf of this very same 
project. Am I correct?
    Mr. Mayorkas. I believe that's correct.
    Mr. Thompson. Former Member of this committee, who just 
left 2 weeks ago, Representative Palazzo, contacted your office 
on behalf of this very same project. Am I correct?
    Mr. Mayorkas. I believe so.
    Mr. Thompson. Well, and the point I am trying to make is we 
get an Inspector General's report that would lead you to 
believe that only Democrats contacted on behalf of this job 
creation program.
    Let's go to the L.A. Films program. A former Member of this 
committee--I am told that a former Member of this committee 
contacted you, a Republican, contacted you on behalf of this 
program. Are you aware of that?
    Mr. Mayorkas. I don't recall. I know that that case was the 
subject of communications from both parties of Congress----
    Mr. Thompson. Okay.
    Mr. Mayorkas [continuing]. Congressman.
    Mr. Thompson. The SLS program, are you aware of bipartisan 
contact in support of this program?
    Mr. Mayorkas. I am.
    Mr. Thompson. So it is safe to assume that the three cases 
presented to us by the IG did not include any Republican 
Members' support for those projects, as you saw them?
    Mr. Mayorkas. As best I can recall the report, that is 
correct.
    Mr. Thompson. Well, I asked the IG in this hearing, and he 
did not answer the question.
    But I am just trying to say, again, the report was 
incomplete. Gentlemen, ladies, we all get asked by our 
constituents all the time to support various projects.
    Deputy secretary, there has been some question about a 
deference review board that you allegedly created to review the 
L.A. Films case. Are you aware of that?
    Mr. Mayorkas. Yes, but that was not created for that case. 
That was created for all cases.
    The concept of the decision board was generated in 2011. I 
discussed with career employees the application of that 
decision board to the issue of deference, which was of 
tremendous concern in the community in the EB-5 program. I 
discussed its application with a number of career employees in 
2012 and on-going.
    Mr. Thompson. So it was not limited to that one case.
    Mr. Mayorkas. The decision board, or deference board, as it 
was termed subsequently, was a reform that was applicable to 
the EB-5 program writ large. It was needed, and especially with 
respect to the issue of deference, which caused so much 
consternation in the community.
    When USCIS would make a decision, investors would invest, 
capital would be infused, business projects would begin. Then 
the agency would change its interpretation, reverse course, and 
projects would collapse, and jobs would be lost.
    Mr. Thompson. Thank you.
    My last question, Mr. Mayorkas, goes to this: Was it 
unusual for you, as the director of the agency, to refer items 
to counsel for their review and opinion?
    Mr. Mayorkas. I did that, Congressman, with some frequency 
depending on the issue.
    Mr. Thompson. With respect to the EB-5 cases with the 
outside stakeholders, you sought advice of counsel in these 
cases.
    Mr. Mayorkas. I did. Quite frequently, we would discuss the 
legal issues and other issues involved in these cases.
    Mr. Thompson. Thank you. I yield back.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from New York, Mr. Katko.
    Mr. Katko. Mr. Mayorkas, thank you for appearing before us 
today.
    Again, to reiterate the Chairman's comments, we didn't 
write this report, and we are duty-bound, since the report 
exists, to follow up on it. So I am going to ask you a series 
of questions, and if you could keep the answers as brief as 
possible, I would appreciate it, unless I ask for some 
explanation.
    With respect to the L.A. Film Regional Center issue, did 
you, in fact, speak to Governor Rendell about that issue?
    Mr. Mayorkas. I believe I did. In a conference call, I 
believe I did, to the best of my recollection.
    Mr. Katko. To the best of your recollection, do you recall 
what was said during that conference?
    Mr. Mayorkas. I apologize. I'm sorry?
    Mr. Katko. Do you recall what was said during that 
discussion?
    Mr. Mayorkas. I do not.
    Mr. Katko. But you do recall, to the best of your 
recollection, that you spoke to him about this issue.
    Mr. Mayorkas. I know I spoke with him about an EB-5 case, 
and I believe it involved the L.A. Films case. I'm not certain, 
Congressman.
    Mr. Katko. Now, the deference review board that was 
referenced as part of the L.A. Film Center Regional issue, did 
that, in fact, exist after this, after the L.A. Film Regional 
Center issue?
    Mr. Mayorkas. I learned from the Inspector General's report 
that it was not convened since the L.A. Films case. My hope is 
that, No. 1, the agency was not issuing incorrect decisions 
subsequently----
    Mr. Katko. I understand that. I am sorry to cut you off. I 
just want to know if, in fact, the board was ever used, and 
your answer is it was not?
    Mr. Mayorkas. Based on my reading of the Inspector 
General's report, it appears that it was not.
    Mr. Katko. Well, you were working there.
    Mr. Mayorkas. I left sometime after, and so I did not keep 
track of the conduct of the deference review board, especially 
because of the changes that I made in our administration of the 
program----
    Mr. Katko. Okay.
    Mr. Mayorkas [continuing]. The new leadership that I 
brought, the new office that I created, and the new processes 
that we put in place.
    Mr. Katko. Thank you.
    Now, with respect to this deference review board, was it 
ever used before the L.A. Films Regional Center case?
    Mr. Mayorkas. To the best of my recollection, Congressman, 
we discussed using it in 2012 with respect to another EB-5 
case, and we decided that a different process could be used to 
resolve the very same issue of deference in that EB-5 case.
    That was an EB-5 case in which I became----
    Mr. Katko. I am sorry to cut you off again.
    Mr. Mayorkas. I'm sorry.
    Mr. Katko. It just requires a yes-or-no answer. Was it used 
before the L.A. Films case or not?
    Mr. Mayorkas. To the best of my knowledge, no.
    Mr. Katko. Okay. It wasn't used since?
    Mr. Mayorkas. To the best of my knowledge, no.
    Mr. Katko. Thank you.
    Okay. Now, with respect to the Las Vegas Regional Center 
issue, do you recall specifically speaking with Senator Reid 
about this?
    Mr. Mayorkas. I do.
    Mr. Katko. Okay. Also, with respect to this, do you ever 
remember speaking with Steve Olson, the executive director of 
SelectUSA?
    Mr. Mayorkas. I do not remember speaking with him about the 
case. That doesn't mean I did or did not. I just don't recall.
    Mr. Katko. Now, with respect to the Gulf Coast case that 
was mentioned in the report, do you recall having contacts 
directly with Governor McAuliffe?
    Mr. Mayorkas. I do.
    Mr. Katko. Okay. How many such contacts did you have with 
him about this case?
    Mr. Mayorkas. I remember, to the best of my recollection, 
less than a handful. To the best of my recollection now, as I 
sit here, Congressman, I remember a meeting I attended at which 
Mr. McAuliffe was present, in the Department of Homeland 
Security headquarters, at the direction of the then-Secretary's 
office. I remember him calling to complain over the ensuing 
couple years, I believe, a few times.
    Mr. Katko. All right. The general discussions were about 
Gulf Coast and trying to get that approved; is that correct?
    Mr. Mayorkas. They were Mr. McAuliffe complaining about our 
adjudication in the cases.
    Mr. Katko. All right. Thank you.
    Now, you mentioned during your opening statement and I 
think in your testimony, as well, that you got involved to 
ensure, ``that cases were decided correctly.'' Do you recall 
saying that?
    Mr. Mayorkas. Absolutely.
    Mr. Katko. Okay. Now, weren't there procedures in place to 
handle these cases at your agency?
    Mr. Mayorkas. There were, but there were times when cases 
were brought to my attention by my own employees to resolve 
complex legal or policy issues. That was with respect to the 
EB-5 cases and many other cases outside of the EB-5 program.
    Mr. Katko. With respect to the EB-5 cases, though, I just 
want to make sure I am clear--and you can tell me ``yes''' or 
``no''--were there established procedures for handling EB-5 
cases?
    Mr. Mayorkas. Yes.
    Mr. Katko. Were those EB-5 cases procedures, did they 
contemplate interjection by the head of the agency like you 
did?
    Mr. Mayorkas. I believe that they contemplated 
supervisorial review. So, when supervisorial review was 
warranted, supervisors engaged.
    Mr. Katko. But----
    Mr. Mayorkas. I viewed myself as the ultimate supervisor 
responsible for the agency's fair and correct administration of 
the law.
    Mr. Katko. So, in your mind, it was appropriate for you to 
interject yourself into the process as you saw fit?
    Mr. Mayorkas. It was my responsibility to ensure that we 
were adhering to the law, Congressman, and if that warranted my 
involvement in a case, then I became involved. I was a very 
hands-on leader and, I believe, for the benefit of the agency 
and all of its workforce.
    Mr. Katko. Now, I want you to--it is hard to do, I know, 
and I have to do this once in a while in my 10 years as 
prosecutor--to take a step back and look at it from a layman's 
perspective.
    Now, if you look at it from a layman's perspective, you 
have instances in which individuals are trying to influence the 
EB-5 process for their own benefit. You are taking their input 
and then, in turn, interjecting yourself into those cases and 
trying to effect the outcome of those cases to the benefit of 
the individuals who ask for your support.
    It is fair to say, from a layman's perspective, that may 
give you a perception of something less than impartiality. 
Isn't that fair to say?
    Mr. Mayorkas. Congressman, if I may, I would not 
characterize it that way. Because what you said is that I would 
interject myself to drive to a decision that would benefit 
those individuals, and that is not true.
    What I did do was get involved in cases to ensure that we 
were adhering to the law, whether that led to a denial of a 
case or the approval of a case.
    Mr. Katko. Well, it is fair to say, if these allegations 
are true, you were interjecting yourself into these cases in an 
attempt to influence the outcome.
    I point specifically to the allegation that you wanted a 
case file, in the McAuliffe instance, because you wanted to 
rewrite the decision yourself. Is that fair to say?
    Mr. Mayorkas. No, Congressman. Respectfully, that is not 
accurate.
    I interjected myself, to use your terminology, in many, 
many cases in the agency----
    Mr. Katko. I am not talking about other cases. I am----
    Mr. Mayorkas. I understand.
    Mr. Katko [continuing]. Talking about this case.
    Mr. Mayorkas. I sat around the table and discussed the 
legal issues that were involved in the GreenTech case that our 
own agency designated as complex, that our own agency referred 
to its own appellate review office because of the complexity of 
the issues.
    When we resolved a particular issue, I offered to write the 
legal analysis, just as I had offered to attend in person a 
settlement conference in a particular case because I thought I 
could add value to the correct disposition of the case; just as 
I offered--and the Chairman will appreciate this--just as I 
offered to try a case that involved National security interests 
because our agency felt that we were compelled to grant 
citizenship to an individual who I believe did not deserve 
citizenship and actually posed a danger to our community, and I 
offered to try that case myself, for the benefit of the agency, 
for the benefit of the interests that our agency was the 
guardian of.
    Mr. Katko. Okay.
    If the Chairman would indulge me just one moment? Thank 
you.
    I guess I am getting at the point that the perception, even 
if there was no wrong-doing here, the perception is that people 
are calling, at least in the Gulf Coast case, for example, 
someone who has a very strong interest in seeing it come out a 
certain way, certain actions were taken by you.
    Looking back on it, wouldn't it be fair to say that--you 
said yourself that you, quote, regret the perceptions caused by 
your actions. Now, isn't it fair to say that that perception is 
part of the problem and kind of flies in the face of your 
ethical guidelines, the perception is almost as bad as doing 
something wrong?
    In looking back on it, wouldn't you say that, at a minimum, 
it was probably not a good idea to have such access from the 
outside and just deal the cases based on the facts?
    Mr. Mayorkas. If I can, Congressman--and, Mr. Chairman, if 
I could also have your indulgence, because this is a very 
important point, and it speaks to the value and importance of 
the Inspector General's report, which I have tremendous respect 
for.
    I took actions in these cases to guard against a perception 
issue. I was aware of it. I consulted with counsel; I consulted 
with my colleagues.
    I have thought a great deal about this issue because, as 
the Chairman noted, the ethics and integrity memorandum that I 
issued is extremely important, and the principles articulated 
therein are extremely important and principles to which I have 
adhered throughout my 18 years of Government service--12 as a 
Federal prosecutor and 4 as the director of U.S. Citizenship 
and Immigration Services and approaching 2 as a deputy 
secretary of Homeland Security.
    I have thought a great deal about the report. I have 
thought a great deal about the allegations. I have reviewed the 
report and the allegations with great care and reflected upon 
them and reflected upon my activities and the concerns 
expressed by my colleagues at U.S. Citizenship and Immigration 
Services.
    I do regret the perceptions that my activities created, and 
I take responsibility for those perceptions. I've thought 
about, what else could I have done to better guard against 
those perceptions?
    That is one reason why I value so much the report that the 
Inspector General prepared and, importantly and critically, why 
I have endorsed and embraced the protocols that Secretary 
Johnson directed and that the Office of the General Counsel for 
the Department of Homeland Security have promulgated. Those 
protocols would have better equipped me to guard against the 
perception of some employees, who did not necessarily have 
complete context with respect to my involvement in these three 
cases nor my involvement in so many other cases.
    I appreciate the opportunity to address your important 
questions.
    Chairman McCaul. The gentlemen's time has expired.
    Mr. Katko. Thank you very much.
    Chairman McCaul. The gentlelady, Ms. Watson Coleman, is 
recognized.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Mr. Mayorkas, I have a lot of questions, so I, too, would 
like to have expedient answers.
    You started in 2009 in this program over the EB-5 program, 
right?
    Mr. Mayorkas. Yes. I became the director in August 2009.
    Mrs. Watson Coleman. When did you leave?
    Mr. Mayorkas. I left in December 2013.
    Mrs. Watson Coleman. When were these three cases, in 
particular, the subject of consideration and, supposedly, your 
involvement?
    Mr. Mayorkas. Two-thousand-eleven on. I can't--I apologize, 
I can't provide a more discrete time frame.
    Mrs. Watson Coleman. Do you know when the Inspector General 
started his investigation?
    Mr. Mayorkas. I don't. I believe it was in 2012 or 2013.
    Mrs. Watson Coleman. Some of this happened while you were 
there, and some of this happened while you were gone?
    Mr. Mayorkas. I learned of the Inspector General's 
investigation in July 2013.
    Mrs. Watson Coleman. During his investigation, how many 
times did he interview you?
    Mr. Mayorkas. I was interviewed once.
    Mrs. Watson Coleman. During that interview, did he raise 
the issues that preferential treatment and preferential access 
was alleged and that decisions based upon that access on your 
part was alleged with regard to these three cases?
    Mr. Mayorkas. Yes, that subject was raised in the 
interview. I should say that the Inspector General himself did 
not interview me, but investigators did.
    Mrs. Watson Coleman. Did the investigators tell you the 
individuals that you supposedly gave access to?
    Mr. Mayorkas. I believe the allegation was that I gave 
access to some individuals with interest in the outcome of the 
cases.
    Mrs. Watson Coleman. But did they identify them for you?
    Mr. Mayorkas. I don't recall, but----
    Mrs. Watson Coleman. My question is going to be--my 
question is basically this: The Inspector General only reported 
to us that there was access by people who are of one political 
persuasion. The information that we have been briefed on 
consistently is that there was bipartisan interest in each of 
these instances.
    So I want to know at what time did you ever inform the 
Inspector General that, in addition to the people that he was 
concerned about, or his office, that there were equally as many 
other either nonpartisan or partisan individuals from either 
side of the aisle who expressed consistent interest in the 
outcome of these cases.
    Mr. Mayorkas. I believe I informed the Inspector General's 
office that these cases were the subject of bipartisan support. 
I don't believe I identified particular individuals.
    I did articulate the overarching and critical principle 
that our obligation is to decide a case not by who is 
interested in it but by the law and the facts in the particular 
case.
    Mrs. Watson Coleman. Thank you.
    One of the things that I heard you say or I read was that 
perhaps individuals who had made these allegations who were 
lower in the hierarchy did not know what was going on because 
you were discussing these issues with counsel and with members 
above you in the hierarchy.
    So they didn't know that you were, in fact, checking with 
legal counsel and others as you were proceeding to work your 
way through these particular issues, as you might on other 
issues too. Is that correct?
    Mr. Mayorkas. I think there were individuals with whom I 
worked at all levels of the agency with whom I interacted about 
these cases. But I--I have thought a lot about this. But 
perhaps I could have done a better job of providing full 
context for those with whom I worked, and maybe that would have 
better guarded against the perceptions.
    Mrs. Watson Coleman. Well, are those the ones that are 
below you in the system, that were below you in the 
organizational chart?
    Mr. Mayorkas. Well, I was----
    Mrs. Watson Coleman. In other words, you would be 
communicating down to them that which you were doing on behalf 
of these cases or in the interest of resolving these issues?
    Mr. Mayorkas. Those were individuals who reported to me, 
either directly or through chains.
    Mrs. Watson Coleman. So you did have interaction with 
people you were seeking counsel from at the counsel level or at 
your level or above----
    Mr. Mayorkas. Oh, yes.
    Mrs. Watson Coleman [continuing]. On these issues?
    Mr. Mayorkas. With respect to my involvement in these 
cases, I was very open with my colleagues.
    Mrs. Watson Coleman. On the three cases that have been a 
part of this discussion--and the only discussion we have had--
two of them had an outcome which was not favorable to the 
individuals who were seeking the applications; is that right?
    Mr. Mayorkas. I know that, in the GreenTech case, after my 
involvement concluded--because, once the complex legal issues 
were addressed, I withdrew from involvement in the case, my 
involvement was no longer warranted--I know that complaints 
regarding the case continued for quite some time.
    In the SLS case, my involvement was very discrete with 
respect to whether we were applying our expedite criteria 
correctly. I concurred, in that case, with the career 
employee----
    Mrs. Watson Coleman. Right.
    Mr. Mayorkas [continuing]. Who led the EB-5 program office 
at that time.
    Mrs. Watson Coleman. Right.
    Mr. Mayorkas. Then with L.A. Films, I was not involved in 
the decision of the--what has been termed the ``deference 
board.'' I was not involved in its decision making.
    Mrs. Watson Coleman. So, in your opinion, why are these 
three issues before you, these allegations raised by these 
employees that were beneath you? Was there something going on 
in your agency?
    Mr. Mayorkas. Well, I will say this, if I may, and then I'd 
like to answer your question directly.
    I was very active----
    Chairman McCaul. I would just like to state, we are about a 
minute, 30 overtime. So, if you could, you know----
    Mrs. Watson Coleman. Excuse me. With all due respect, Mr. 
Chairman----
    Chairman McCaul. Yeah.
    Mrs. Watson Coleman [continuing]. We just had a 11\1/2\-
minute interaction between----
    Chairman McCaul. Yeah. Just----
    Mrs. Watson Coleman [continuing]. My esteemed colleague Mr. 
Katko and Mr. Mayorkas.
    Chairman McCaul. That is fine. I gave the witness a very 
long opportunity for a very long time to respond, to his 
benefit. I----
    Mrs. Watson Coleman. I can wait for another round.
    Chairman McCaul. To deference to all the other Members 
here, I am going to have to keep a little more discipline.
    But go ahead. Ask your----
    Mrs. Watson Coleman. Thank you.
    Chairman McCaul [continuing]. Last question.
    Mrs. Watson Coleman. You know what? I will come back for a 
second time, because there are only two of us here. But I just 
ask for consistency.
    Chairman McCaul. I am not going to allow 10 minutes for 
every Member. I----
    Mrs. Watson Coleman. Well, how we pick and choose----
    Chairman McCaul. The last one, the response from the 
witness was a little bit on the long side, and I allowed that 
to go forward.
    Mrs. Watson Coleman. Okay.
    Chairman McCaul. But I am----
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Chairman McCaul [continuing]. Going to have to maintain 
some discipline, as Chairman of this committee.
    Your last question?
    Mr. Thompson. But I----
    Mrs. Watson Coleman. Thank you----
    Mr. Thompson. Excuse me.
    Chairman McCaul. Last question.
    Mr. Thompson. Mr. Chairman, I think what the gentlelady is 
asking for is a balance. At no point did anybody get the time 
called on them. The gentlelady was only a minute over. All we 
had to do----
    Chairman McCaul. We will have a balance, and it will be 
more disciplined moving forward in this hearing, or we will not 
be done by the time votes occur.
    But, having said that, the gentlelady will please ask your 
last question.
    Mrs. Watson Coleman. I believe that Mr. Mayorkas was in the 
process of answering a question, Mr. Chairman.
    Chairman McCaul. Sure.
    Mr. Mayorkas. If I may, I'll answer it very briefly by 
saying this: It is my responsibility to ensure that my 
employees understand my actions as a leader of the agency. It 
is my responsibility to ensure that they understand entirely 
and completely the reasons for my involvement and the 
consequences of my involvement.
    Mrs. Watson Coleman. Thank----
    Mr. Mayorkas. At this time, I was making extraordinary 
changes in the EB-5 program and our administration of it.
    Mrs. Watson Coleman. Thank you very much.
    Mr. Chairman----
    Chairman McCaul. Yes?
    Mrs. Watson Coleman [continuing]. I don't know if we were 
planning to come back afterwards. I mean, I have a series of 
questions. But I tell you, I also have a series of questions 
that I would like to bring before the Inspector General as to 
why we were only given a little bit of information regarding 
these three issues in particular and why it was all associated 
with some sort of partisan--so I don't know what your plans 
are, but I don't think we are done here.
    I thank Mr. Mayorkas.
    I really wanted to talk to you about all the improvements 
that you have made to the management of this office and the 
Department in general and how we should be applauding that 
instead of, sort-of, excoriating you, but maybe next time.
    Thank you very much, Mr. Chairman.
    Chairman McCaul. Thank you.
    Let me just say I am very lenient with time normally as a 
Chairman, but I am trying to keep this within some bounds of 
reason. I will let Members go over the 5 minutes, but within 
bounds of reason, on both sides of the aisle.
    With that, now the Chairman recognizes Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    If I may take just a point of privilege here, the Chairman 
did not interrupt the Member but I think was directed to Mr. 
Mayorkas.
    The 2009 EB adjudication policy contains a section 
entitled, and I quote: ``Communication with EB-5 External 
Stakeholders.''
    The section of the policy states, ``Where oral 
communication takes place between USCIS staff and external 
stakeholders regarding specific EB-5 cases, the conversation 
must be recorded, or detailed minutes of the session must be 
taken and included in the record of proceeding. The EB-5 
program maintains an email account for external stakeholders to 
use when seeking general EB-5 program information, inquiring 
about the status of pending cases, or requesting to expedite of 
a pending EB-5 case.''
    The policy continues with this: ``USCIS personnel are 
instructed to direct all case-specific and general EB-5-related 
communications with external stakeholders through this email 
account or through other established communications channels, 
such as the National Customer Service Center or the USCIS 
Office of Public Engagement.''
    So, during your tenure as director, would you be considered 
USCIS personnel? As such, the clause in this policy that I just 
read, would it be applicable to you, yes or no?
    Mr. Mayorkas. Yes, I was a USCIS personnel. Those 
guidelines would apply to me. However, they should not be at 
the detriment of ensuring that we get to the right result in a 
case. So I would become involved in a case if my involvement 
was warranted to adhere to the law that Congress passed.
    Mr. Walker. So are you saying that you unilaterally made 
that decision, whether you should, kind-of, abide by the 
policy? Is that my understanding, or are you saying something 
different here?
    Mr. Mayorkas. I'm saying something different, Congressman, 
if I may. I apologize if I was unclear.
    I was a consultative leader. So, when I engaged in a 
particular case, sometimes at the behest of my employees, 
sometimes because a concern or inquiry was raised by a Member 
of Congress, sometimes because of a stakeholder, I did not do 
so in the dark of night but did that openly, in collaboration 
with my colleagues, to ensure that we were resolving legal and 
policy issues correctly and bringing force to the laws that 
Congress passed in the EB-5 program.
    Mr. Walker. Fair enough.
    Okay. You also had contact over email, telephone, and in 
person with EB-5 external stakeholders, including but not 
limited to Ed Rendell, Tom Rosenfeld, Terry McAuliffe, and 
Anthony Rodham, where the status of pending cases were 
discussed. Is that correct?
    Mr. Mayorkas. Yes.
    Mr. Walker. Okay. These email communications occurred 
through your USCIS email and not the established EB-5 email, 
National Customer Service, or other established communication 
channels. Is that correct?
    Mr. Mayorkas. They were with me through email on occasion, 
and then I would share the emails with my colleagues for the 
recordkeeping to which you refer.
    Mr. Walker. How would you go about sharing those emails 
with your colleagues?
    Mr. Mayorkas. So, for example, in the GreenTech case, when 
my involvement was needed to address the issues with which the 
agency was grappling, I would forward my emails to counsel, and 
I----
    Mr. Walker. Mr. Mayorkas, would you say that was in line 
with the policy, the EB-5 policy, or not?
    Mr. Mayorkas. I'd have to take a look at that policy, but 
it was in line with our ultimate obligation to adhere to the 
law.
    I became involved when my involvement was necessary, when 
the complexity of the legal or policy issues warranted it. When 
my involvement was not necessary, I did not engage. In fact, if 
one takes a look at the chronology of these cases, one will see 
that I was involved when the issues warranted and when the 
issues were resolved I withdrew from my involvement.
    Mr. Walker. Okay.
    I have a couple more I want to squeeze in here. But there 
seems to be a pattern here, as far as kind-of overriding the 
policy, when, in your interpretation, you felt like the overall 
law was more important.
    My question is: Your telephone calls and in-person meetings 
were not recorded and/or detailed minutes were not taken and 
submitted into the record of proceeding; true or false?
    Mr. Mayorkas. I couldn't speak to that. I certainly 
communicated--if I may, Congressman, I communicated the fact of 
communications with my colleagues. How those were recorded I'm 
not certain.
    But I will say this. This is very important----
    Mr. Walker. Let me pause before you just move on there, 
because, at this point, I have counted about 14 or 15 times 
where you have said, ``I believe so, but I'm not certain,'' 
``to the best of my recollection,'' and then on to something 
else.
    So let me go back to the question: Did you follow in line 
with the policy? Do you need to reread the policy? Or, in your 
interpretation that you are testifying, that you felt that 
there was a larger scope to go by instead of the policy itself?
    Mr. Mayorkas. Congressman, I sought each and every day----
    Mr. Walker. That is my last question. After he responds, I 
will yield back.
    Please go ahead.
    Mr. Mayorkas. Thank you, Congressman.
    I sought each and every day to adhere to the highest legal 
and ethical legal standards that guide a public servant. The 
protocols that Secretary Johnson directed and that the Office 
of General Counsel promulgated will bring improvements to the 
very issue about which you inquire.
    Mr. Walker. Thank you, Mr. Mayorkas.
    Mr. Mayorkas. Thank you.
    Mr. Walker. Mr. Chairman, I yield back.
    Chairman McCaul. I thank the Member.
    The Chairman now recognizes Miss Kathleen Rice from New 
York.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Mayorkas. you have made reference to, in your testimony 
and in your written statement, that you support and embrace 
Secretary Johnson's protocols that were developed to more ably 
ensure that employees understand the involvement of their 
supervisors in specific cases.
    Forgive me if I missed this, but did you tell us what those 
protocol changes were?
    Mr. Mayorkas. No, I haven't. I believe they were issued 
formally this past Monday.
    The Office of General Counsel set forth protocols that 
speak to a clearance process before certain leaders become 
involved in particular cases that define very generally the 
circumstances in which that involvement is warranted or, I 
should say, optimal. They speak--to Congressman Walker's issue 
in question--they speak to the recording of the involvement, so 
there's clarity and understanding by all employees with respect 
to the reasons for and the fact of that involvement.
    I clearly would have benefited from those protocols.
    Miss Rice. What about whether or not, in order to address 
Mr. Katko's line of questioning about perception, are you or 
someone in your position--you are not there anymore--but in 
charge of CIS, are they able to accept phone calls from elected 
officials?
    Mr. Mayorkas. Under the protocol, I would--I believe so, 
and I believe the protocol speaks to that and the fact that 
those communications should be recorded.
    Miss Rice. Okay. So, you know----
    Mr. Mayorkas. By ``recorded,'' I mean memorialized, not 
necessarily audibly recorded.
    Miss Rice. I will agree with Mr. Katko that very often 
perception becomes reality. Perception is an issue that we all 
have to deal with.
    You have gone through and been questioned very much about, 
you know, the actions that you took and the perceptions that 
they actually gave other people, whether accurate or not.
    But I think the more relevant question, Mr. Chairman, that 
we to ask on this committee is--and maybe we do this in a 
closed session--do those phone calls that all of us make to 
various Federal agencies inquiring about specific issues, is 
that a negative perception right there, and should we not do 
that?
    Or can we figure out a way that we can serve our 
constituents--because that is what these phone calls do--in a 
nonpartisan way--because Republicans and Democrats both do it--
and do it in a way that makes sure that the perception is not 
misconstrued and there is a transparency?
    So I just throw that out there, and I thank you for your 
consideration, Mr. Chairman. Thank you.
    Mr. Mayorkas. Thank you.
    Chairman McCaul. The Chairman now recognizes Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Mayorkas, good morning.
    Americans pride themselves on a transparent Government 
where any person from any background has an equal chance of 
success, where a person's success or failure is blind to 
privilege or association and that success is solely based upon 
merit as it relates to a set of objective criteria established 
for the express purpose of ensuring fairness, while denying 
individuals in positions of power and influence the latitude to 
use their position to unethically benefit for themselves or for 
those whom with they wish to curry favor.
    Based on that premise, under what circumstances do you 
consider preferential treatment by a Government official 
acceptable?
    Mr. Mayorkas. Congressman, if I may, the principle which 
you espoused is----
    Mr. Perry. That is mine. Okay. Use your own.
    Mr. Mayorkas. No, no, no.
    Mr. Perry. Just use your own then. Under what premise, 
under what circumstances is preferential treatment by a 
Government official acceptable?
    Mr. Mayorkas. I embrace your articulation of that 
principle----
    Mr. Perry. Okay. So there aren't any. There is no time.
    Mr. Mayorkas. Preferential treatment is not acceptable.
    Mr. Perry. Okay. Thank you.
    With that understanding--with the understanding that you 
worked throughout your tenure to revise the EB-5 visa 
adjudicative process, and, as a former United States attorney, 
is it accurate to state that you were aware that the 
adjudicative process was governed by statute, regulation, and 
USCIS policy?
    Mr. Mayorkas. Absolutely so.
    Mr. Perry. Okay. So that is a ``yes.''
    Is it also accurate that you violated established USCIS 
policy for handling inquiries into the program?
    Mr. Mayorkas. I do not believe I did, Congressman. I am----
    Mr. Perry. Okay. Well, I am just--so you are saying that 
the office of OIG is wrong. That is okay if you are saying 
that, but----
    Mr. Mayorkas. No, I am not. This is very--this is very 
important because the Office of Inspector General is one that I 
have profound respect for, and I understand its importance.
    The Office of Inspector General found that employees----
    Mr. Perry. I am talking about what you did, sir.
    Mr. Mayorkas [continuing]. Had a--yes--had a perception 
that I granted preferential treatment to individuals with an 
interest in these cases. I am responsible for the perception 
that my employees have of the work that I do.
    Mr. Perry. Okay.
    Mr. Mayorkas. I bear that responsibility. I regret the 
perceptions that my work created.
    Mr. Perry. Okay. So it is their perception----
    Mr. Mayorkas. However----
    Mr. Perry [continuing]. But you disagree that you violated 
the policy. That is fine. You can.
    Do you consider the EB-5 visa valuable? You know what the 
value is of the EB--what is the cost, generally speaking, 
within the parameters of the program?
    Mr. Mayorkas. When you're asking what does it cost, the 
fee?
    Mr. Perry. Five hundred thousand dollars to $1 million, 
right?
    Mr. Mayorkas. Oh, I'm sorry. To obtain----
    Mr. Perry. Yeah.
    Mr. Mayorkas [continuing]. To obtain a visa----
    Mr. Perry. That is what kind of money we are talking about 
here, right?
    Mr. Mayorkas. We are talking about a million dollars unless 
the investment is in an area of high unemployment or rural 
area--$500,000.
    Mr. Perry. Right. So we are talking, to me, significant 
money. I don't know about anybody else, but----
    Mr. Mayorkas. Yes.
    Mr. Perry. So, as of July 15--and I don't mean to rush, 
but----
    Mr. Mayorkas. That's okay.
    Mr. Perry [continuing]. I only have so much time.
    As of July 15, 2011, did you have a previously existing 
relationship with former DNC Chairman and PA Governor Ed 
Rendell?
    Mr. Mayorkas. Before when? I'm sorry.
    Mr. Perry. July 15, 2011.
    Mr. Mayorkas. Not to my recollection.
    Mr. Perry. Okay. So the answer is ``no'' there.
    Is it true that, as of July 13, 2011, USCIS adjudicators 
were going to deny EB-5 visa applications for a firm known as 
L.A. Films?
    Mr. Mayorkas. I believe, from my reading of the Inspector 
General's report, that is the case.
    Mr. Perry. Okay. So you believe so.
    Is it also true that, on July 15, 2 days later, getting a 
phone call from somebody that you did not know--probably knew 
of him--you received a call from former Pennsylvania Governor 
Ed Rendell, and, within an hour of this call, you directed your 
staff to reopen the denied application for L.A. Films. True or 
false?
    Mr. Mayorkas. If I may, I want to clarify something in your 
question----
    Mr. Perry. Sure.
    Mr. Mayorkas [continuing]. Congressman. Because I believe 
that Governor Rendell reached out to me about an EB-5 case 
earlier. As I mentioned, and I believe it was in response to 
the Chairman's query, perhaps another Member of this committee, 
I don't remember the chronology----
    Mr. Perry. Well, I have the----
    Mr. Mayorkas [continuing]. Of L.A. Films----
    Mr. Perry [continuing]. Chronology from the Inspector 
General report. You just told me you didn't have a previous 
relationship with the Governor. Now you told me that he reached 
out to you previously, so that is a little cloudy for me.
    I guess, finally--so you are telling us it is a coincidence 
that former DNC Chairman and PA Governor Ed Rendell was a paid 
consultant representing L.A. Films and he just happened to call 
you 2 days after it was known the L.A. Films EB-5 request was 
going to be denied and that, within hours of receiving the 
Governor's call, you, Mr. Mayorkas, directed your staff to 
reopen the denied application for L.A. Films. Is that a 
coincidence?
    Mr. Mayorkas. I would respectfully take issue, Congressman, 
with your characterization of the question.
    Mr. Perry. I understand it. You are an attorney, right? It 
doesn't seem like you came very prepared for the meeting, 
knowing that it was coming.
    One final question, Mr. Chairman.
    What is DHS's policy for employee use of personal emails in 
the context of--on April 7, 2015, this year, I sent a letter to 
the Secretary requesting to see a copy of your email usage 
policy. Why has it taken so long to--I know you can't answer 
that question.
    What was the policy for the employee use of personal 
emails? Do you know?
    Mr. Mayorkas. To the best of my knowledge, official 
business is to be conducted on official Government email.
    I will follow up with your question, Congressman, with 
respect to your request for a copy of our email usage policy.
    Mr. Perry. Thank you.
    Mr. Chairman, I yield.
    Chairman McCaul. The Chairman recognizes Mr. Loudermilk 
from Georgia.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Mr. Mayorkas, thank you for being here today.
    As subcommittee Chairman on another committee on oversight, 
it is amazing how, I guess, being in the committee room with 
oversight causes selective memory with some people. So I am 
understanding the process a little bit more of asking multiple 
questions over and over. I appreciate you being here and 
willing to share with us what you recall.
    First, I want to ask you about the deference review board. 
When you established that, did they already have--when they 
first met, were there policies and procedures in place when 
they convened their first meeting?
    Mr. Mayorkas. Congressman, the board was first considered 
and formulated in concept about 2 years earlier, in 2011. It 
was discussed when first published as a proposal and evolved 
since then.
    The board convened in the L.A. Films case, and I am not 
aware of what procedures it did or did not have in place at 
that time.
    Mr. Loudermilk. Well, according to the IG's report, it 
indicates that they had no policies and procedures in place 
when they first convened.
    Now, how many times did the DRB convene?
    Mr. Mayorkas. My understanding, from the report, 
Congressman, is that it convened once.
    Mr. Loudermilk. It was only regarding the L.A. Films case?
    Mr. Mayorkas. That is correct.
    My hope is two-fold: One, that with the issuance of a 
governing EB-5 policy memorandum approximately 2 months after 
the board convened that gave better guidance to our 
adjudicators, we were no longer making decisions that we deemed 
to be incorrect and had to reverse, at the great expense and 
consternation of stakeholders as well as Members of Congress; 
and that we were adhering to our deference policy with greater 
orthodoxy than had previously been the case. Because the 
concern was that we were failing to honor our own substantive 
EB-5 policies.
    Mr. Loudermilk. So the DRB was formulated as an appeals 
board for someone who was denied. It was used once. Then it was 
disbanded because now you had a policy and a way that an appeal 
could be done. Is that correct?
    Mr. Mayorkas. Congressman, I would say that the decision 
board was contemplated as an issue resolution board when a 
case, an EB-5 case, reached a certain point.
    Mr. Loudermilk. So, once the DRB was disbanded, what was 
the process when someone was denied their application? What was 
the appeal process then?
    Mr. Mayorkas. I don't know that the DRB, by its acronym, 
was ever disbanded or just not utilized. But if an issue was 
not resolved yet, the USCIS adjudicators could, for example, 
pose inquiries to the party in interest, they could request 
evidence, and there could be a line of communication of written 
questions and written responses, usually fact-based, trying to 
obtain evidence that addressed one of the elements of the 
particular visa category at issue.
    The decision board was contemplated in 2011 to bring 
greater efficiency to that process so that the party in 
interest could convene with the appropriate USCIS 
representatives to seek to resolve the legal or policy or 
factual issues that had not yet been resolved.
    Mr. Loudermilk. So, based on what you are telling me in the 
OIG report, the DRB met one time, they heard an appeal, and 
they overturned it. It was disbanded.
    How many denials since then have been appealed and then 
approved?
    Mr. Mayorkas. How many denials of EB-5 cases or----
    Mr. Loudermilk. EB-5 cases. Because my concern with this 
program is that--and it looks like staff has done a pretty good 
job with this, but my concern is, this is an avenue that could 
be abused for someone who has money to buy citizenship in the 
United States.
    Mr. Mayorkas. Congressman, if I can, two things.
    No. 1, the program contemplates not only the investment of 
capital but, importantly, the investment of capital that leads 
to the creation of a certain number of jobs for U.S. workers, 
No. 1.
    No. 2, and what I think you might be hinting at, which is a 
subject that Mr. Chairman referenced, is a concern of an avenue 
for people to come into the United States and the importance of 
ensuring that our National security interests are well-
protected in this program. I actually made significant reforms 
in our administration of the EB-5 program to bring that 
National security vetting rigor to the program. I brought in 
our Fraud Detection and National Security Directorate to get 
involved in and engaged with the EB-5 cases.
    I should say also, if I may, Congressman, that it was I who 
created the Fraud Detection and National Security Directorate 
to bring greater fraud detection and National security rigor to 
all of our adjudications across the agency.
    Mr. Loudermilk. If I may, Mr. Chairman, one more question.
    Regarding Gulf Coast, Mr. McAuliffe had contacted you 
beginning in 2008, and, from questions we have had, that 
continued on 'til 2011. I assume that, although Mr. McAuliffe 
had several roles during that time period--CEO of GreenTech 
Automotive; he was also a chairman of Hillary Clinton's 
Presidential campaign and chair of the DNC in various times 
there--I assume that the contact he made was regarding CEO of 
GreenTech Automotive.
    Now, during that time period, when we read the IG's report, 
Gulf Coast was denied, I guess, investment for GreenTech for 
three different reasons. All of them, when you read those 
reasons, was to prevent against someone just being able to buy 
citizenship into the United States. One was investment funds 
would not be at risk. The investor did not have a managerial 
role in the regional center, and the proposal did not encompass 
a single contiguous region.
    But with several emails and phone calls with Mr. McAuliffe, 
it seems that you decided then to engage and, according to the 
IG's report, said you were willing to rewrite the decision.
    Mr. Mayorkas. If I may, Congressman, first, just a point of 
clarification. The time frame was not 2008 to 2011. I became 
the director of the agency in August 2009. I think it was well 
subsequent to that.
    These very legal issues that were involved in the GreenTech 
case our own agency certified for internal administrative 
appellate review because of their complexity. My involvement 
was to ensure that we were resolving those issues in adherence 
to the laws that Congress passed and the regulations that we as 
an agency promulgated in the service of those laws.
    Mr. Loudermilk. But isn't that what the DRB would have done 
had it stayed in place, to avoid your direct involvement?
    Mr. Mayorkas. I don't recall the timing of the DRB, but we 
did not launch the DRB, to the best of my recollection, 
Congressman, at the time that these legal issues rose to my 
attention. I would have to look at the timing, but we were not 
ready for the decision review board at that time. Whether we 
had published the concept of it by that time, I just don't--I 
don't recall.
    Mr. Loudermilk. Okay.
    Mr. Mayorkas. I will say this, that the resolution of those 
three issues was reached in adherence to the law. The issue of 
``at risk'' and the correct reading of ``in the matter of 
Izummi'' was decided correctly.
    Mr. Loudermilk. So you are inferring that the staff did not 
correctly interpret the law, but, once your engagement came in, 
then there was a correct interpretation of the law.
    Mr. Mayorkas. I think that our collaborative review of 
these issues led to the correct result in these cases, because 
I did not decide them alone.
    Mr. Loudermilk. So does the law need to be clarified? 
Because it sounds like the law must be pretty subjective then.
    Mr. Mayorkas. I think that, at that time, the agency, and 
as I referenced in my opening statement, the agency did not 
have adequate guidance to its adjudicators, and we fixed that. 
Two months after the deference review board met, approximately 
2 months after, we promulgated for the first time a 
comprehensive policy memorandum that better guided adjudicators 
in the administration of this program.
    Mr. Loudermilk. Thank you, sir.
    Yield back, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes Ms. Sheila 
Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member.
    Mr. Deputy Secretary, thank you very much.
    As I indicated, I had to step away. We were in the 
Judiciary Committee marking up the USA FREEDOM Act, an 
opportunity to protect the civil liberties and the privacy 
rights of Americans while we protect domestic security--another 
aspect of responsibility that I know that you take very dear, 
as the deputy secretary for Homeland Security.
    Let me just indicate that I missed the discussion on the 
swearing in or not swearing in. I draw support for my 
colleagues who raise the point, and I support them, that, 
although you willingly were sworn in, I do think it is 
appropriate that, if the answerer of the report is sworn in, 
then the presenter of the report should be, as well, with no, 
in any way, denigrating of the Inspector General.
    So I thank you for your presence here.
    I want to quickly go through some points, first, to 
acknowledge that you came to the deputy secretary's 
responsibility to improve a lot of infrastructure aspects of 
one of the largest departments in this Government, Department 
of Homeland Security.
    Many of us on this committee were there when this 
Department and this committee ultimately was founded, if you 
will, after the Select Committee on Homeland Security. We are 
well aware of the monumental responsibilities of security and 
many other very important duties that this agency has, 
including the oversight of the Secret Service and our border 
security.
    So I believe that this is a matter that we should put to 
rest so you can get back to the office and do the work that 
adheres to the securing of this Nation.
    But what I would say--and you can listen as I say it. My 
understanding is that the IG's report found no wrong-doing, 
found no unlawful act committed for an unlawful purpose, and 
found no lawful act for an unlawful purpose.
    My understanding is that there was nothing attributed to 
you that you did unlawfully. Is that accurate?
    Mr. Mayorkas. I believe the Inspector General did not make 
a finding that I violated any laws. I do believe the Inspector 
General found that I did not adhere----
    Ms. Jackson Lee. I will get to that. I will let you answer 
that in a moment. I just want to answer the unlawful at this 
point. Is that what the--to your understanding, that the 
Inspector General found, that you did not do anything unlawful?
    Mr. Mayorkas. That is my understanding.
    Ms. Jackson Lee. That is my understanding, so I will not 
ask you to do yourself in. I will indicate that that is my 
understanding of the beginning parts of the report.
    The report found that there were three unusual acts, but 
none were determined to be unlawful. So we will get to, in 
quotes, the ``unusual acts.''
    But I think you answered the question, as I was listening 
to the inquiry made by my colleague, that there are 
adjudicators and decision makers on the EB-5, and then you 
ultimately sign off on their work that is done. Am I clear on 
that?
    Mr. Mayorkas. Congresswoman, I don't sign off on their 
work. What I meant to articulate, if I did not do so clearly, 
is that I, as the leader of the agency, bear ultimate 
responsibility for the correctness of our decisions, our 
administration of the law.
    Ms. Jackson Lee. So they do the work. There is not a 
signature that you have on it, but you are taking 
responsibility for making sure that whatever comes out of the 
Department of Homeland Security that may have been under your 
jurisdiction as director or now the deputy secretary is 
accurate. Is that what you are saying?
    Mr. Mayorkas. Yes.
    Ms. Jackson Lee. We thank you for that.
    But there was work done by other persons on the EB-5 
applications; is that correct?
    Mr. Mayorkas. Yes.
    Ms. Jackson Lee. You are now saying that that work is now 
being directed with better criteria and guidelines that can be 
checked and double-checked by others to make sure that the work 
is correct.
    Mr. Mayorkas. I think we made a tremendous number of 
improvements, very significant improvements, to the 
administration of the program and better equipped our personnel 
to administer that program in adherence to the law, 
Congresswoman.
    Ms. Jackson Lee. When the Inspector General said ``unusual 
acts,'' that played into--or did it play into, in your 
interpretation, as poor guidelines or structure for the EB-5?
    Mr. Mayorkas. Congresswoman, I did--my involvement in these 
cases was as my involvement in many, many other cases, whether 
EB-5 or otherwise. When a case presented issues that warranted 
my involvement, I became involved. My own employees brought 
cases to me because of the issues involved. Members of Congress 
brought cases to my attention. Stakeholders brought cases to my 
attention. I learned from the media of certain cases. If the 
issue warranted my involvement, I engaged, and if the issue 
didn't, I did not.
    I think that is evidenced by the chronology of my actions 
in these very cases that were the subject of the Inspector 
General's review. When an issue, for example, in the GreenTech 
case warranted my involvement, I worked with my colleagues to 
resolve the issue. When the case no longer warranted my 
involvement, I withdrew.
    Ms. Jackson Lee. So let me, if I can interpret what you are 
saying, you have a commitment to this country, and you have a 
commitment to the better workings of the U.S. Department of 
Homeland Security, is that correct, to make this department an 
effective department?
    Mr. Mayorkas. I do.
    Ms. Jackson Lee. So your intervention came about through 
newspapers, stakeholders, or other to make the Department 
better and to be a problem solver where it was brought to your 
attention. Would you interpret your intervention or your work 
in that category?
    Mr. Mayorkas. Absolutely so, Congresswoman. I would say I 
also have an additional calling, and that is an abiding duty to 
the law.
    Ms. Jackson Lee. Let me just be very clear. I am a strong 
supporter of EB-5 for the poor and minority communities across 
America. I would really hope that, as the Department looks to 
that process, that those communities may be the ultimate 
benefactors in many instances and that there are structures in 
place. But I would tell you, if there is anyone that I believe 
that can put those structures in place, it would be you and 
Secretary Johnson, because I do have a sense that you both want 
to be problem solvers.
    So here is my question: Would you comment on the value of 
investment in some of these poor communities where jobs can be 
created?
    No. 2, in any of the decisions that you have been noted 
for, cited for, if you will, did you have any personal stake, 
was there any self-interest, and did you benefit financially 
from any involvement of any of those particular incidents?
    Mr. Mayorkas. Congresswoman, I did not have any personal 
interest or benefit in any way from the disposition of any case 
pending before U.S. Citizenship and Immigration Services. The 
dramatic increase in interest in the EB-5 cases during my 
tenure was a reflection of the great interest in seeing an 
infusion of capital in the creation of jobs in communities that 
were suffering high unemployment at the time.
    Ms. Jackson Lee. I think the final point of my inquiry--and 
I thank the Chairman and the Ranking Member for their 
indulgence--is, first, to get on the record that EB-5, done 
right, can infuse economic opportunity and jobs to struggling 
communities across America.
    So let me ask you this question, as you are the deputy 
secretary: Are those some of the elements that you look at in 
directing, or the procedures of your now persons that do the 
initial review or decision making, have those kinds of 
framework in their mind, in their eyesight, of creation of jobs 
and helping underserved communities across America?
    Mr. Mayorkas. Those are some of the specified elements of 
an EB-5 adjudication, that a certain amount of capital must be 
invested. If it is an area of high unemployment--and that is 
defined specifically--then that impacts the amount of 
investment capital that must be made.
    Also, there are--one of the elements is the likely--I hope 
I have my legal terminology correct--but the creation of jobs 
in the United States. For the amount of capital, 10 jobs must 
be created or are reasonably likely to be created.
    Ms. Jackson Lee. Well, I will work with you to increase 
that number. But I would just end on the note of saying, Mr. 
Deputy Secretary, you did not benefit from any of these 
decisions personally?
    Mr. Mayorkas. I did not.
    Ms. Jackson Lee. Let me thank you for your service. I think 
that we have gotten a thorough review of your service, your 
commitment to this country, and the fact that we are better off 
that you are serving Department of Homeland Security, but, more 
importantly, that EB-5 will be what it should be, which is an 
investment in the American people and job creation where it is 
needed.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. I thank the gentlelady.
    The Chairman recognizes the Ranking Member for purposes of 
entering a document into the record.
    Mr. Thompson. Thank you, Mr. Chairman.
    For purposes of entering into the record, I have a 
statement from the International Brotherhood of Teamsters.
    Chairman McCaul. Without objection, that is so ordered.*
---------------------------------------------------------------------------
    * The information was not submitted at the time of publication.
---------------------------------------------------------------------------
    Let me close, sir, by saying thank you for coming here 
today to give your side of the story.
    Oh, I am sorry. Mrs. Torres just arrived.
    You are recognized.
    Mrs. Torres. I apologize, Mr. Chairman, for the late 
arrival. We were marking up another bill.
    Chairman McCaul. Understood.
    Mrs. Torres. Deputy Secretary Mayorkas, thank you so much 
for being here. I know that this was not, you know, quite an 
easy task for you today.
    I am new to the committee and new to this issue, and I 
really would like for you to outline the steps that you took as 
the director of the U.S. Citizenship and Immigration Services 
and now as deputy secretary to improve the transparency of the 
EB-5 program.
    Mr. Mayorkas. Thank you very much, Congresswoman.
    I made a number of reforms to the EB-5 program, 
culminating, I think, in the ultimate public development and 
publication of a governing policy memorandum that set forth 
clear resolutions to issues in the EB-5 program with which the 
agency was grappling for quite a number of years.
    I created a new EB-5 program office and created a Senior 
Executive Service leadership position for that office. We 
created it in Washington, DC, in part because of the amount of 
interchange that we had with other Government agencies and 
stakeholders here in our Nation's capital. We selected an 
individual in the new leadership position that came from a 
financial regulatory background.
    We strengthened fraud detection in National security 
protocols and safeguards to the program. There were a series of 
reforms that we made to the program to address the loud chorus 
of concerns and complaints that we received not only from 
Members of Congress from both parties but especially from the 
public at large.
    Mrs. Torres. Moving forward--you have already identified 
some changes--what else would you say that you and the 
Department can work on, lessons learned? How can we improve 
transparency?
    Mr. Mayorkas. Two things come immediately to mind.
    One, to which I referred earlier in my testimony, 
Congresswoman, one is the very important protocols with respect 
to leadership involvement in certain cases that were 
promulgated this past Monday at the direction of the Secretary 
of Homeland Security, Jeh Johnson. They were promulgated by the 
Office of General Counsel. I think that will bring greater 
transparency to leadership involvement in particular cases.
    We also welcome the opportunity, as Secretary Johnson wrote 
earlier this week, we welcome the opportunity to provide 
technical advice to Members of Congress as they review the EB-5 
program as it approaches its sunset period of time. There are 
programmatic changes that can buttress the National security 
and anti-fraud regime that is currently in place.
    Mrs. Torres. Thank you so much.
    Thank you for your patience.
    Chairman McCaul. The Chairman recognizes--it is a closing 
statement, but it may be a question, so I am going to open it 
up to one last round of questions, and then we will close.
    Sir, I had some interest--in the case of the Gulf Coast 
case, with the DNC former chair, Terry McAuliffe, it involved 
EB-5 visas for Chinese foreign nationals. Do you know who these 
foreign nationals are?
    Mr. Mayorkas. I do not.
    Chairman McCaul. Okay. Yet you did intervene in this case 
and said that you would rewrite the decision yourself.
    Mr. Mayorkas. What I did do, Mr. Chairman, is I offered to 
write a legal analysis of one of the issues that we resolved 
around the table. It was the matter of whether the requisite 
amount of investment capital was at risk. That is my best 
recollection of that discussion. I certainly----
    Chairman McCaul. Which is the standard, is it at risk or 
not. Correct. I understand that standard.
    Were these Chinese foreign nationals properly vetted for 
National security reasons?
    Mr. Mayorkas. I would hope so. It is our responsibility, of 
course, to ensure that individuals who are granted visas do not 
pose a National security risk to our Nation. One of the 
critical improvements that I made, Mr. Chairman, to our 
administration of the EB-5 program was to bring our fraud 
detection and National security expertise to bear in the 
vetting of EB-5 petitioners.
    Chairman McCaul. I commend you for that. But do you know if 
in this case they were vetted for National security reasons?
    Mr. Mayorkas. I had no involvement, to the best of my 
recollection, in----
    Chairman McCaul. Would you have intervened in a case like 
this and rewritten the decision if you knew there was any 
National security concern?
    Mr. Mayorkas. Mr. Chairman, let me say two things.
    No. 1, I was brought--I became involved in a case to 
address discrete issues, No. 1, and not all of the issues 
involved in a case. But I was involved----
    Chairman McCaul. This does draw an issue and a concern----
    Mr. Mayorkas. If I may, Mr. Chairman----
    Chairman McCaul [continuing]. If the Department was 
properly vetting these applicants.
    Mr. Mayorkas. If I may, Mr. Chairman, because this is very 
important, and it goes to a number of the issues.
    I read a report that raised concerns of National security 
or fraud in this case, and I referred this case immediately, 
myself, to our Fraud Detection and National Security 
Directorate.
    When an issue arose in the GreenTech case--and I believe it 
was subsequent to our resolution of the at-risk management and 
contiguity issues involved in the case. I learned of a concern. 
I believe it was a public concern, not one that percolated 
within our own agency. I brought in our fraud detection and 
National security personnel to look at it.
    Chairman McCaul. In this case?
    Mr. Mayorkas. In this case.
    Chairman McCaul. Okay. I am glad to hear that. At first, 
you said ``I hope so,'' but now you have a more definitive 
response to that.
    I would like to know--because I don't know who they are. I 
would like for the Department to produce to me the names of 
these individuals who applied and their background and the 
National security vetting of these individuals. Of course, I 
make that request, if you will agree to that.
    Mr. Mayorkas. Of course.
    Chairman McCaul. Okay.
    Last, just, you know--and Ms. Sheila Jackson Lee asked you 
questions earlier, previously, and you said, we are always 
focused on the fact there should be no communication that 
provides an avenue for undue influence on the adjudication, and 
it should be independent, based on the laws and the facts, 
which you stated previously.
    I think the only issue is, you know, if you create a 
policy, which you did, I think you need to follow it. Maybe, if 
you don't follow it, then create a new policy. But when you say 
that there shouldn't be preferential treatment as the policy 
and yet you make--I mean, it is one thing, as Miss Rice points 
out, Members of Congress do contact all the time, and we just 
ask, you know, that you take a look at the case.
    These cases are a little different from that. These cases, 
you set up a separate board to deal specifically with 249 
petitions. In another case, you overrule cases you have already 
approved, and in one case deciding to rewrite the decision 
yourself. It seems to me that is more than just a phone call 
from a Member, which Miss Rice points out we are entitled to 
do, and you are entitled to act upon that. In these cases, you 
really went out of your way, in very much an exception to the 
rule, that has the appearance, as you stated in your opening 
statement, of preferential treatment.
    You know, you say that is the purpose. Then, of course, you 
do have penalties here even if the appearance is violated, that 
there should be disciplinary penalties, including removal from 
office. What do you think is appropriate in your case?
    Mr. Mayorkas. Mr. Chairman, I was involved in these cases 
as I was involved in many, many cases, both in the EB-5 program 
and outside the EB-5 program. The level of my involvement 
depended on the need for my involvement to help resolve 
difficult issues. My level of involvement in these cases is 
mirrored in other cases, as well. It wasn't a question of who 
brought the case to my attention but, rather, what the case 
needed to resolve it in adherence to the law and the policy.
    Chairman McCaul. All right. Just so I am clear, because I 
want you on the record: In your opinion, you did not violate 
your own ethics policy.
    Mr. Mayorkas. If I may, Mr. Chairman, the Inspector General 
found that, by virtue of my involvement in these three cases, 
employees perceived that I exercised undue influence in these 
cases.
    I thought I had taken steps to guard against that. I bear 
responsibility for the perception of my employees. That is my 
responsibility, and I acknowledge that.
    I have profound respect for the Office of Inspector General 
and this investigation and throughout their work.
    Chairman McCaul. Then we appreciate your honesty and 
candor. Do you believe that there should be any disciplinary 
action in your case?
    Mr. Mayorkas. Mr. Chairman, Secretary Johnson has spoken 
with me about this case--about this matter, I should say. He 
has spoken with me, and we discussed not only my involvement in 
this case, but we discussed lessons learned. We also discussed 
the protocols that at the time he directed and has since 
promulgated, which I support and embrace.
    Chairman McCaul. I thank the witness for your candor, as 
always, and honesty.
    Chairman recognizes the Ranking Member.
    Mr. Thompson. Thank you very much.
    Deputy Secretary, the EB-5 program, can you, for the 
committee, indicate whether or not--those individuals who 
invest in the programs, can you describe the vetting of that 
investor for the committee?
    Mr. Mayorkas. There are two issues, as best as I recall, 
Congressman, that are at issue. One is the need to ensure that 
the funds that are invested are from a lawful source. Then 
there is the vetting of the individual, him- or herself, to 
determine whether they--to ensure that they do not pose a 
National security risk or otherwise pose a public safety danger 
such that their admission to the United States should be 
denied.
    More specific than that, I cannot at this moment 
articulate.
    Mr. Thompson. So, during your tenure at the Department, 
were you involved in either of those two processes within the 
EB-5 program?
    Mr. Mayorkas. I did not conduct the vetting or the forensic 
work myself.
    Mr. Thompson. Is it commonplace for Members of Congress to 
contact USCIS on behalf of the EB-5 program?
    Mr. Mayorkas. Congressman, as I mentioned, we receive more 
than 1,500 communications from Members of Congress per year 
about the EB-5 program. The number of communications we 
received from Congress about this program dwarfed the number of 
communications we received about any other program we 
administered.
    Mr. Thompson. Is it not uncommon for Governors or other 
interested individuals to contact USCIS on behalf of the EB-5 
program?
    Mr. Mayorkas. The EB-5 program was the subject of 
communications from all corners and all quarters by virtue of 
two distinct forces at play: No. 1, the increasing importance 
of the program because of the challenges our economy faced at 
that time; and, No. 2, the poor administration of the program 
by our agency, which I should underscore was not the fault of 
our adjudicators but, rather, the fault of the institution in 
not providing those adjudicators, who are tremendously hard-
working and dedicated and talented public servants, not 
providing them with the support they needed. These are very 
complicated legal, business, economic cases.
    Mr. Thompson. That contact, either by Members of Congress 
or Governors or other State and local officials, has been by 
both Democrats and Republicans?
    Mr. Mayorkas. Yes, sir.
    Mr. Thompson. So did you or have your staff felt that this 
kind of contact should not take place?
    Mr. Mayorkas. We were proud of our responsiveness to 
Members of Congress. It is our responsibility.
    Mr. Thompson. So, if anybody contacted you on behalf of the 
EB-5 program under your direction, you did not feel that that 
contact was improper or would have changed your decision making 
on that particular project.
    Mr. Mayorkas. The fact of the contact would not influence 
our decision making. The question is: What would the law 
require based on the facts at issue in the particular case?
    Mr. Thompson. I yield back, Mr. Chairman.
    Chairman McCaul. Let me thank the witness for being here 
today.
    Oh, Ms. Torres, do you have an additional question? I 
apologize.
    Okay. You do not. Okay. Thank you.
    I want to thank the witness for being here today.
    Members of the committee may have some additional questions 
for the witness, and we will ask you to respond to these in 
writing.
    Pursuant to the committee rule 7(c), the hearing record 
will be open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 12:16 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
